 STATE DISCIPLINE OF PHARMACISTS




OFFICE OF INSPECTOR GENERAL
OFFICE OF EVALUATION AND INSPECTIONS
                                       JULY 1990
                        OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG) is to promote the efficiency,
effectiveness, and integrity of programs in the United States Department of Health and Human
Services (HEIS). It does this by developing methods to detect and prevent fraud, waste, and
abuse. Created by statute in 1976, the Inspector General keeps both the Secretary and the
Congress fully and currently informed about programs or management problems and
recommends corrective action. The OIG performs its mission by conducting audits,
investigations, and inspections with approximately 1,300 staff strategically located around the
country.


                 OFFICE OF EVALUATION AND INSPECTIONS
This report is produced by the Office of Evaluation and Inspections (OEI), one of the three
major offices within the OIG. The other two are the Office of Audit Services and the Office of
Investigations. Inspections are conducted in accordance with professional standards
developed by OEI. The inspections are typically short-term studies designed to determine
program effectiveness, efficiency, and vulnerability to fraud or abuse.

This study, entitled "State Discipline of Pharmacists," was conducted to examine the practices
of State boards of pharmacy in disciplining pharmacists.

The report was prepared under the direction of Mark R. Yessian, Ph.D., the Regional Inspector
General, Boston Region, Office of Evaluation and Inspections. Participating in this project
were the following people:


Boston Region                               Headquarters
Martha B. Kvaal, Project Leader             Alan S. Levine
Carol I. Barash
Eleanor M. Ellis
Barry C. McCoy
Charles E. Vann
Elizabeth A. Wirick
STATE DISCIPLINE OF PHARMACISTS




           Richard P. Kusserow
          INSPECTOR GENERAL




                                 JULY 1990
                                 EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection was to assess the disciplinary practices of State boards of
pharmacy. It examined the strengths and vulnerabilities of the pharmacy boards in attempting
to ensure that pharmacy is practiced safely, competently, and in accordance with pharmacy
and drug laws.

BACKGROUND

This is the sixth in a series of Office of Inspector General (OIG) reports on State boards of
licensure and discipline. The other reports have focused on boards of medicine, dentistry,
podiatry, chiropractic and optometry. In this, as in the other reports, the OIG's interest in the
boards' performance is based on the important front line of protection they afford to the
public. The inquiry was based on: (1) telephone discussions with representatives from all the
State boards of pharmacy, (2) visits to six States for in-depth discussions with board
representatives, (3) discussions with representatives from State and national professional
organizations and government agencies, and (4) review of pertinent literature and data.

FINDINGS

The enforcement responsibilities of State pharmacy boards have become increasingly complex
and challenging in recent years because of changes in pharmacy practice and the problem of
drug diversion.

Many States have taken important steps to strengthen the enforcement capacity of State
pharnzacy boards.

           Many States have broadened their regulatory and disciplinary controls through
           changes in their pharmacy and drug laws.

           Many States have strengthened the boards' capacity to address drug diversion.

The number of the most serious types of disciplinary actions taken by State pharmacy boards
between 1986 and 1988 increased for the nation as a whole. However, virtually all this
increase occurred in three States, and the incidence of serious disciplinary actions varied
considerably among the States.

           For the nation as a whole, the most serious types of disciplinary actions taken by
           State pharmacy boards between 1986 and 1988 increased by slightly more than 20
           percent. These actions include revocations, suspensions, probations, and voluntary
           surrenders of licenses.
           Most of the increase in the most serious disciplinary actions between 1986 and
           1988 is attributable to three States. Many pharmacy boards took relatively few
           such actions during this period.

           Rates of the most serious disciplinary action taken by State pharmacy boards
           during this period varied widely-from 1.49 actions per 1000 licensees in one State
           to 45.61 actions per 1000 licensees in another.

           In most States, as in the nation as a whole, the number of revocations and voluntary
           surrenders did not increase between 1986 and 1988.

           The limited use of peer review by many professional pharmacy associations,
           particularly in comparison with that in some other professions, makes the
           disciplinary performance of pharmacy boards all the more significant.

Pharmacy boards impose the most serious discipline mainly for drug diversion and self-abuse
of drugs. They rarely address quality of care issues, despite the increasing emphasis in the
profession on the clinical aspects of pharmacy practice.

The ability of many State pharmacy boards to protect the public is hampered by limitations in
their legal authorities, administrative processes, and resources.

RECOMMENDATIONS

Tlze State Governments

          State governments should ensure that State pharmacy boards have adequate
          resources and authority for carrying out their enforcement responsibilities
          effectively.

          State governments should take steps to streamline the administrative process so
          that State pharmacy boards are able to process disciplinary cases more efficiently.

          State governments should take steps which enhance the capacity of pharmacy
          boards to deal with drug diversion and impairment of pharmacists.

State Pharmacy Boards

          State pharmacy boards should review the outcomes of their disciplinary process
          and evaluate whether they are affording the public the maximum protection
          possible.
           State pharmacy boards should disseminate more broadly information on the
           disciplinary actions they have taken.

 The National Association OfBoards Of Pharmacy

           The National Association of Boards of Pharmacy (NABP) should intensify its
           efforts to help State pharmacy boards address the changing nature of pharmacy
           practice, particularly with respect to the clinical roles of pharmacists.

           The NABP should work with State pharmacy boards and national professional
           pharmacy organizations to explore viable approaches to assessing the continued
           competence of licensed pharmacists.

The American Pharmaceutical Association

           The American Pharmaceutical Association (APhA) should exercise its leadership
           in encouraging more peer review of pharmacists' professional performance by
           national and State professional pharmacy organizations.

           The APhA should work with the NABP and other professional pharmacy
           organizations to develop appropriate methods for assessing the continued
           competence of pharmacists.

The U.S. Public Health Service

           The Public Health Service (PHs) should increase its support to the NABP in its
           efforts to provide leadership to State pharmacy boards.

COMMENTS

Comments on the draft report were received fiom the Health Care Financing Administration
and the Public Health Service within the Department, and from the Drug Enforcement
Administration of the Department of Justice. These comments were in general agreement
with the findings and recommendations of the report. Comments were also received fiom
several national organizations including the American Association of Colleges of Pharmacy
(AACP), American Pharmaceutical Association (APhA), American Society of Hospital
Pharmacists (ASHP), National Association of Boards of Pharmacy (NABP), and the National
Clearinghouse on Licensure, Enforcement and Regulation (CLEAR). These organizations,
too, were generally supportive of our recommendations, although the APhA and the NABP
expressed some resel-vations about our recommendation calling for more peer review of
pharmacists' professional performance by national and State professional pharmacy
organizations. A summary of these comments and our response to issues raised appear at the
end of the report. The detailed comments appear in appendix A.
                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          The enforcement responsibilities of State pharmacy boards
          have become increasingly complex and challenging in recent
          years because of changes in pharmacy practice and the
          problem of drug diversion ...................................... .4

          Many States have taken importartt steps to strengthen the
          enforcement capacity of State pharmacy boards .......................5

          The number of tlte most serious types of disciplinary actions
          taken by State pharmacy boards between 1986 and 1988
          increased for the nation as a whole. However, virtually all
          this increase occurred in tltree States, and the incidence of
          serious disciplinary actions varied considerably among the
          States ..................................................... 7

          Plzurnzacy boards intpose tlte most serious discipline mainly
          for drug diversion and self-abuse of drugs. They rarely
           address quality of care issues, despite tlte increasing emphasis
           in the profession on the clinical aspects of pharmacy practice                                 ........... I 1
          The ability of many State pltarmacy boards to protect the
          public is Itanzpered by lintitatio~tsin their legal authorities,
          administrative processes, artd resources ........................... . I 4

RECOMMENDATIONS           ............................................ I 8
          State Governments ......................................... I 8

          State Pharmacy Boards ..................................... I 9

          National Association of Boards of Pharmacy .................. .20

          American Pharmaceutical Association ....................... .21

          The U.S. Public Health Service ...............................21
COMMENTS ON THE DRAFT REPORT
AND OIG RESPONSE TO COMMENTS        ............................. .22
APPENDIX A

    Detailed Comments on the Draft Report   ......................A-1
APPENDIX B

    Table of Incidence and Rate of
    Serious Disciplinary Actions, By State, 1986-1988   ..............B-1
APPENDIX C

    Methodological Notes   ..................................... C-1
APPENDIX D
                                                                   ...
    Endnotes   ............................................. r:'.     D-1
                                       INTRODUCTION

The purpose of this inspection was to assess the disciplinary practices of State boards of
pharmacy. It examined the strengths and vulnerabilities of the pharmacy boards in attempting
to ensure that pharmacy is practiced safely, competently, and in accordance with pharmacy
and drug laws. Specific attention was focussed on the disciplinary authorities of pharmacy
boards, on their processes for enforcement and discipline, and on the extent, type, and reasons
for their disciplinary actions in recent years.

This report is the sixth in a series of reports issued since 1986 by the Office of Inspector
General (OIG) on the various State health professional boards: medicine, dentistry, podiatry,
chiropractic, and optometry.

The Federal Government has long recognized the paramount role played by State regulatory
boards in setting the standards for the licensure and discipline of health care practitioners. In
so doing, it has relied on the States to provide an important front line of protection for the
health and safety of the public. In particular, the Department of Health and Human Services
(HHS) has relied on State boards to provide overall assurance that the health care services
supported by the Medicare and Medicaid programs are provided by health care professionals
duly licensed and practicing within the terms of the States' practice acts and other related
laws. Although the Department can sanction providers who have abused or defrauded these
programs, it continues to depend upon State boards to discipline providers for transgressions
unrelated to the Medicare or Medicaid programs.

As expenditures under the Medicare and Medicaid programs have grown to be larger than
one-fourth of all expenditures for health care in the United States, the Department's interest in
the performance of State regulatory boards for the various health professions has increased. In
this context, a report on the performance of State pharmacy boards, particularly in fulfilling
their disciplinary responsibilities, is both relevant and timely. For many years, nearly all
States have reimbursed pharmacists for services provided to Medicaid recipients. It is
possible, too, that Federal health care benefits will be expanded during the 1990s in which
case the relevance of the State boards of pharmacy to the Department may become even
greater.

The information for this inspection was based on four lines of inquiry: (1) telephone
discussions with the chief executives of the State pharmacy boards during the spring of 1988
and the spring of 1989; (2) visits to six States (CA, FL, MA, MI, NY, TX) involving
discussions with several pharmacy board representatives; (3) review of pertinent literature and
relevant data bases; and (4) discussions with representatives of various major professional
associations concerned with disciplinary practices of pharmacy boards. (For more
methodological background, see appendix C.)

This report presents our findings on the practices of State pharmacy boards in disciplining
pharmacists. It begins with a brief profile description of State boards of pharmacy. It then
turns to a discussion of the disciplinary practices of the boards and concludes with
recommendations for action addressed primarily to State governments and State boards of
pharmacy.

STATE BOARDS OF PHARMACY

Pharmacy boards, like other health professional boards, are administrative agencies created by
State governments to protect the health, welfare, and safety of the public through the
regulation of pharmacy practice.1 State governments have empowered pharmacy boards to
establish the scope of pharmacy practice, to license pharmacists and pharmacies, and to
discipline those who violate the legal requirements. In the United States today, approximately
183,000 pharmacists are in active practice in nearly 68,000 pharmacies. 2

From their early days in the late 1800s, pharmacy boards, like the other health professional
boards, were primarily examining boards which emphasized their licensure activities more
than their discipline function. They were relatively inconspicuous agencies of State
government which functioned largely autonomously and were comprised solely of
pharmacists.

Since the 1960s, the environment has changed considerably for State professional boards.
With the consumer movement and heightened concern about the quality of health care
services, more attention has been focussed on the performance of boards in protecting the
public. Demands for greater accountability led many States to bring professional boards into
large central agencies, to add public members to complement the professionals, and to place
more emphasis on discipline.

Pharmacy boards have, however, developed into entities which vary significantly from other
health professional boards. Pharmacy boards do more than define the scope of professional
practice and license and discipline the professionals. They also regulate pharmacies as the
facilities in which the profession is practiced, and they regulate the distribution of the drug
product itself. Thus the purview of pharmacy boards is much broader and in some ways their
task is more complex than that of other health professional boards.

Pharmacy boards, too, vary significantly among themselves. Boards differ in the scope of
their responsibilities. For many boards these responsibilities extend beyond the practice act
and the licensure and discipline of pharmacists and pharmacies. Seventy-five percent of the
boards, for example, also license and inspect drug manufacturers and wholesaler^.^ Nearly
forty percent of the boards are the State scheduling authorities for controlled substances?
Finally, many pharmacy boards have significant responsibilities in administering their States'
food and drug laws.5

Pharmacy boards differ in the way they are organized. About 50 percent of the pharmacy
boards report that they are attached to a larger government department and are not
independent. Some boards have sole authority to make rules and regulations; some do not.
Most boards, but not all, can both license and discipline. A few boards are advisory to other
entities of State government who make final decisions about rules, licenses, and discipline
concerning pharmacy. Pharmacy boards have an average of seven members, although they
range from three to 21 members. Seventy percent of the boards have at least one public
member. In most States, board members are appointed by the Governor for terms ranging
from 3 to 6 years.

Pharmacy boards also vary in the staff and other resources which support them. Although the
large majority of boards have full-time directors, a few do not employ directors or have only
part-time directors. The number of staff available to boards ranges from one State having one
part-time person to another State having 31 staff. These data, however, do not always include
the inspectors and investigators available to the boards. Finally, annual board budgets among
the reporting 39 States range from a low of $2,500 in one State to a high of $2,874,104 in
another ~ t a t e . ~

This widespread variation among the pharmacy boards makes generalizations about them
difficult. What boards do and how they do it depend in large part on their responsibilities,
organization, and resources. Nonetheless, we believe that our inquiry has yielded important
understandings about the strengths and vulnerabilities of the boards as they discipline
pharmacists-understandings which are pertinent to most pharmacy boards today.
                                         FINDINGS

The enforcement responsibilities of State pharmacy boards have become increasingly com-
plex and challenging in recent years because of changes in pharmacy practice and the prob-
lem of drug diversion.

The practice of pharmacy has been undergoing significant and rapid change since World War
11. Pharmacy boards, as regulators of pharmacy practice, face a challenging task in keeping
up with the complex changes in drug therapies, distribution systems and practice settings, and
pharmacists' professional roles and responsibilities.

Rapid technological changes have resulted in the exploiive proliferation of new drug products
and the development of sophisticated drug therapies and delivery systems. Computerization
has affected not only the routine administrative aspects of pharmacy practice such as labeling
and record keeping but has enabled various more sophisticated applications such as robotics,
fax machines for transmitting prescriptions, and automated drug profiles for more complete
monitoring of patients' drug therapies.

Pharmacy practice has also been affected by the concerns of consumers and third-party payers,
both public and private, over the rapidly increasing costs of health care. Economic factors
have contributed significantly to the emergence of mail order pharmacies as well as drug
repackaging companies which are encouraging the dispensing of prescription drugs by
physicians and other health care professionals. Cost containment efforts by private insurers
and the Federal Government have resulted in greater emphasis on shorter hospital stays and
increased reliance on outpatient care. As a result, pharmacy is being practiced more and more
in settings other than community pharmacies and hospitals. Practice in nursing homes,
ambulatory care facilities, and patients' homes, for example, may require different regulatory
approaches by pharmacy boards.

The role of the pharmacist, too, has been experiencing significant change. No longer is the
pharmacist primarily the compounder of medicines now that drug products are developed and
manufactured by pharmaceutical companies. Gradually, an additional role for pharmacists as
therapeutic advisors has been evolving.7 The nation's pharmacy schools have revised curricula
and degree programs to incorporate clinical training to address this new role. And the national
standards for pharmacy practice developed by the American Pharmaceutical Association
(APhA) and the American Association of Colleges of Pharmacy (AACP) in 1979 clearly
articulated clinical responsibilities for practicing pharmacists.8 The challenge to pharmacy
boards has been, and continues to be, whether and how best to translate these clinical
expectations into the States' regulatory requirements governing the practice of pharmacy.9

Finally, pharmacy boards have had to cope with the changing regulatory responsibilities
imposed on them by the Federal Government. Recent Federal initiatives which significantly
affect the regulatory and enforcement efforts of State pharmacy boards include tighter controls
 over controlled substances, State licensure of wholesale prescription drug distributors, and the
 new national practitioner data bank.

According to one pharmacy board official, all these changes in pharmacy practice have been
"progressing faster than the boards of pharmacy's ability to regulate that practice." lo Indeed,
keeping up with the rapidly changing face of pharmacy was identified recently by pharmacy
board executives as the major challenge facing pharmacy boards today."

In addition to the dramatic changes occurring in pharmacy practice, the serious national
problem of drug diversion has complicated the enforcement responsibilities of State pharmacy
boards. For several years, the diversion of prescription drugs from legitimate distribution
channels for illicit use has been most acute at the retail level-practitioners and pharmacies.
More than 10 years ago, the General Accounting Office (GAO) estimated that over 200
million dosage units of prescription drugs were being diverted each year at the retail level.
More recently, the Drug Enforcement Administration (DEA) has estimated that 80 to 90
percent of the prescri tion drugs diverted for non-medical use is occurring at the practitioner
and pharmacy levels.?2

Diversion of controlled substances at the pharmacy level occurs in several ways. It can result
from direct illegal sales of controlled substances by pharmacists or from outright theft of
drugs from pharmacies, either by pharmacists for their own use or by others. Diversion can
also result from prescription forms which are counterfeit or have been stolen or altered in
some way. And finally, a more subtle form of diversion can occur when pharmacists, either
knowingly or unknowingly, dispense controlled substances which have not been issued for
legitimate medical purposes. This practice, often referred to as "non-therapeutic dispensing",
can involve controlled substances being dispensed to addicts or to the public for other
unapproved clinical indications or for further distribution.13

Many States have taken important steps to strengthen the enforcement capacity of State
pharmacy boards.

           Many States have broadened their regulatory and disciplinary controls through
           changes in their pharmacy and drug laws.

Pharmacy is often described as the most highly regulated of all health professions. In recent
years, many State legislatures and pharmacy boards have been moving to address the changes
occurring in pharmacy by further expanding their regulatory control. Slightly more than
two-thirds of the States, for example, have separate regulations governing the practice of
pharmacy in institutional settings or requiring computerized storage of prescription records.
Nearly one-half have regulations governing nuclear pharmacies where radioactive drugs and
devices are handled. A growing number of States now re uire pharmacists to keep patient
profile records and to provide counseling to their patients.Y4 Controversial regulatory issues
such as the use of pharmacy technicians, mail order pharmacies, and the dispensing of
prescription drugs by health professionals other than pharmacists are currently under debate in
many States.

The National Association of Boards of Pharmacy (NABP) has provided important leadership
to States in their efforts to stay abreast of the rapid changes in pharmacy practice. In 1977, the
NABP developed a Model State Pharmacy Act as well as model regulations for institutional
pharmacy, nuclear pharmacy, and pharmacy computerization to serve as guidelines to State
boards. Over the last 3 years alone, the NABP has developed guidelines and model laws or
regulations on issues such as wholesale drug distribution, anabolic steroids, use of sterile
pharmaceuticals in home health care, mail order pharmacies, patient counseling, and impaired
pharmacists.

During the past 3 or 4 years, at least one-fourth of the States have also been strengthening
their boards' authority to discipline pharmacists.15 At present, every board reported having
authority to revoke and suspend licenses and most, but not all, have authority to place
licensees on probation or to deny the renewal of licenses. However, only approximately
two-thirds of the boards have authority to impose fines for violations, and only about
one-third of the boards reported having written guidelines for their use in deciding which
penalties to impose.                                                                 ..,
                                                                                     -*


Disciplinary penalties may be imposed by pharmacy boards only for reasons (or grounds)
specified in the States' pharmacy practice acts. These grounds vary somewhat from State to
State. However, the majority of States have adopted those grounds recommended in the
NABP Model Act. These include unprofessional conduct; incapacity which prevents a
pharmacist from practicing with reasonable skill, competence and safety to the public; court
convictions for acts involving gross immorality or moral turpitude; fraud, deceit or
misrepresentation; and violations of State and Federal pharmacy or drug laws. 16'

           Many States have strengthened the boards' capacity to address drug diversion.

Nine States have now adopted a multiple copy prescription program which enables State
authorities, including pharmacy boards, to monitor the distribution of Schedule 11 controlled
substances from the prescriber to the dispenser to the consumer. The experience of several
States suggests that these programs can result in a 30 to 50 percent reduction in Schedule I1
prescriptions. They have been effective in combatting problems with forged prescriptions and
in reducing theft of controlled substances from pharmacies. These programs, too, have
enhanced the efficiency of State regulators, including pharmacy board inspectors and other
law enforcement personnel, by facilitating their review of prescription data through
aggregated reports as opposed to the time-consuming review of individual scripts on site.17

Nearly half the States have adopted requirements for separate registration of all practitioners,
including pharmacists, who handle controlled substances. This registration is different from
the pharmacist's license to practice and separate from the DEA registration which is issued to
the pharmacy rather than the pharmacist. Such a registration can be used by the boards to
restrict or deny the pharmacist's privileges to dispense controlled substances while still
retaining the basic privilege to practice. The registmion can also be a source of additional
revenues for investigating drug diversion.18

Finally, several States have established Task Forces sf local, State, and sometimes Federal
agencies concerned with drug diversion to improve coordination and communication among
them.

In efforts such as these, many States have recognized the critical and unique role which can be
played by pharmacy boards in combatting drug diversion by pharmacists and pharmacies.
Among all the agencies combatting drug diversion, only the pharmacy boards have the legal
authority to revoke the licenses of pharmacists and pharmacies and thereby to terminate their
legal rights to practice.

The number of the most serious types of disciplinary actions taken by State pharmacy
boards between 1986 and 1988 increased for the n&'on as a whole. However, virtually all
this increase occurred in three States, and the incidence of serious disciplinary actions
varied considerably among the States.

           For the nation as a whole, the most serious types of disciplinary actions taken by
           State pharmacy boards between 1986 and 1988 increased by slightly more than 20
           percent. These actions include revocations, suspensions, probations, and voluntary
           surrenders of licenses.

Because comprehensive disciplinary data was not avdable from any existing sources, we
asked the board executives in all 50 States plus the District of Columbia to provide us with
information on the number and type of serious disciplinary actions taken by their boards in
1986, 1987, and 1988. We received information for d l 3 years from all but four States.
Nevada and New York were unable to provide data for all 3 years. Oklahoma provided data
only for revocations, and Kentucky provided no data for 1988. (See appendix B for a
state-by-state breakdown of serious disciplinary actions reported for the period 1986-1988 and
appendix C for a more detailed description of our methodology.)

We found that the number of the most serious disciplinary actions-revocations, suspensions,
probations, and voluntary surrenders-imposed by pharmacy boards on pharmacists and
pharmacies increased by slightly more than 20 percent during this 3-year period. These
actions increased from 799 in 1986 to 969 in 1988.19 Suspensions accounted for nearly 60
percent of this increase and were approximately 40 percent of all the most serious actions
imposed during this period (see figure I).

As noted earlier, pharmacy boards also take other k i d s of formal disciplinary actions such as
reprimands and fines. These other kinds of penalties are important disciplinary tools and can
be used effectively by boards. We did not include these other types of actions in our analysis
                                            Figure I


                        Serious State Disciplinary
                       Actions Against Pharmacists
                       and Pharmacies, 1986-1988

                            Number of Actions
                    1200


                    1000


                     800


                     600


                     400


                     200


                        0
                                   1986                1987           1988

     Probations                    266                 312             336
     Suspensions                   315                 355             414
     Vol. Surrenders                36                 51              38
     Revocations                   182                 166             181



                                  Revocations                 Val. Surrenders
                                  Suspensions                 Probations

Source: 49 State Boards of Pharmacy
a s reported to t h e Office of Inspector
General, HHS, May 1989.
summarized here. This is not because we considered them unimportant, but because we
considered the data available to us on these actions too imprecise for reliable analysis.20

           Most of the increase in the most serious disciplinary actions between 1986 and
           1988 is attributable to three States. Many pharmacy boards took relatively few
           such actions during this period.

About 97 percent of the overall increase in the most serious disciplinary actions resulted from
the actions of three States. In fact, one State alone accounts for 57 percent of this increase.

Our analysis indicates that many pharmacy boards imposed these most serious penalties
infrequently during the 3-year period between 1986 and 1988. The median rate of discipline
among the States was approximately eight of these most serious actions per 1000 licensees
during this time2'. Further, 15 States reported taking 10 or fewer of these most serious actions
during this entire period. In fact, seven States reported fewer than 5 such actions. All these
States were those we categorized as small or extra-small except for one medium-sized State.
Seven States, all small or extra-small, took no serious actions at all for one of these 3 years.
(See appendix C for a more detailed description of our typology.)

           Rates of the most serious disciplinary action taken by State pharmacy boards
           during this period varied widely-from 1.49 actions per 1000 licensees in one State
           to 45.61 actions per 1000 licensees in another.

In addition, considerable variation is also apparent when disciplinary actions are correlated
with location and size. States in the Midwest disciplined at the highest rate of 15.55 actions
per 1000 licensees-nearly twice as often as those in the West and nearly three times as often
as those in the Northeast. The large States disciplined most frequently-at a rate of 15.57
actions per 1000 licensees. This rate was more than one and one-half times the rate of the
extra-small and the extra-large States, both of which disciplined least frequently and at nearly
equal rates.

How are we to account for these wide variations in the performance of the boards? Perhaps
some boards are more committed to aggressive discipline than others. It could be that those
boards with fewer actions are dealing with more complicated cases or resolving informally
types of cases which other boards might bring to hearings. Finally, these variations might
result to some degree from differences in the administrative process or in the resources
available to the boards. It is likely that each of these factors to some extent affects the
disciplinary performance of the boards.

           In most States, as in the nation as a whole, the number of revocations and voluntary
           surrenders did not increase between 1986 and 1988.
Revocations and voluntary surrenders of licenses are the most serious of all disciplinary
penalties imposed by the boards. Yet we found that the use of these penalties did not change
much overall and accounted for only 25 percent of all the serious actions taken during the
entire period.

We think it is important to note, too, that the number of revocations summarized here may
overstate the severity of the boards' disciplinary activity. Although revocations are the
ultimate penalty available to boards, they are often neither as permanent nor as serious as the
public may think. Boards can, for instance, reinstate the licenses they once revoked. In fact,
at least 243 licenses were reinstated in 1 9 8 7 . ~Boards
                                                     ~     also may impose revocations, only to
stay them and effect a lesser penalty. The boards reported to us only the most serious penalty
for those actions involving multiple penalties. Thus our data on the number of revocations
does not reflect the actions actually effected.

We recognize also that the disciplinary practices of State pharmacy boards encompass
significant activity which is not captured through analysis of the most serious disciplinary
actions they impose. As we shall see, the majority of complaints and problems are handled by
administrative staff through a variety of informal interventions. Nevertheless, we think
serious disciplinary actions are an important indicator of the rigor of pharmacy boards in
fulfilling their responsibilities to the public.

           The limited use of peer review by many professional pharmacy associations,
           particularly in comparison with that in some other professions, makes the
           disciplinary performance of pharmacy boards all the more significant.

We found that the APhA and most State professional associations of pharmacists have been
largely inactive in monitoring the performance of their members in recent years. The APhA as
well as some State professional associations have formalized processes in their bylaws for
review of their members' conduct. However, fears of antitrust litigation have dampened the
peer review efforts of most associations with which we had contact. Peer review by
professional associations has been less limited in other professions such as medicine, dentistry,
and podiatry.

To be sure, the performance of pharmacists is monitored to some extent by other government
agencies. The States' Medicaid Fraud Control Units as well as the DEA and other State
agencies with responsibilities for controlled substances laws can punish wrongdoing by
pharmacists. The Office of Inspector General can exclude pharmacists and pharmacies from
participation in the Medicare and Medicaid programs. Data from our case study States
showed that these pharmacy boards had, for the most part, imposed serious disciplinary
penalties against those pharmacists and pharmacies sanctioned by the OIG between 1984 and
1988.~~

Nonetheless, perhaps to a greater extent than other health regulatory boards, pharmacy boards
are the primary protectors of the public in relation to the practice of their licensees. Other
mechanisms useful in monitoring the performance of other health professionals, such as
mandatory reporting laws and hospital peer review committees, are not as prominent in
monitoring the performance of pharmacists.

Pharmacy boards impose the most serious discipline mainlyfor drug diversion and self-
abuse of h g s . They rarely address quai* of care issues, &spite the increasing emphasis
in the profession on the clinical aspects of pharmacy practice.

Approximately half of all the formal disciplinary actions reported to us by pharmacy board
executives for the period 1986-1988 were for reasons of diversion and impairment. These
officials estimated that nearly one-fourth of these actions were the result of diversion by the
pharmacist for economic gain; nearly three-fourths of them primarily for impairment of the
pharmacists due to self-abuse of drugs. Analysis of the those disciplinary actions reported to
the NABPYsDisciplinary Clearinghouse confmed these reports. Slightly more than half the
violations reported to the Clearinghouse for the years 1986, 1987, and 1988 involved drug
diversion and self-abuse of drugs.

Drug Diversion
                                                                                                  '
For many pharmacy boards, drug diversion cases consume considerable time and effort from
both administrative staff and board members. Discussions with board officials in our case
study States confmed that drug diversion cases are among those having top priority for
investigation and prosecution and for receiving the most severe disciplinary sanctions.

In identifying and developing drug diversion cases, pharmacy boards typically work with
officials from local and State law enforcement agencies as well as from the DEA.
Approximately two-thirds of the boards reportedly utilize the DEA's ARCOS reports to
identify potential diversion.24 However, less than 20 percent of the boards reported that they
rely primarily on ARCOS, because its reports are considered too untimely and not always
readily available to pharmacy inspectors. Most pharmacy boards identify potential diversion
cases primarily through pharmacy inspections and from information received from other
government agencies. Several boards reportedly have instituted their own systems for
tracking the distribution of controlled substances by manufacturers and wholesalers.

In several States, the pharmacy boards have focussed particular attention on the problem of
non-therapeutic dispensing by pharmacists. Federal controlled substances legislation allows
prescribers to write prescriptions only for legitimate medical purposes in the usual course of
their professional practice. The law defines a corresponding responsibility for pharmacists to
fill only le itirnate prescriptions and makes them accountable for the prescriptions they
dispense.29 The pharmacy boards in California, Michigan, and Texas, for example, have
widely publicized the corresponding responsibility of pharmacists and have imposed
discipline on those who violate these legal requirements.
    Impairment

    In recent years, many pharmacy boards have come to recognize the importance of therapeutic
    interventions when dealing with pharmacists impaired by the abuse of alcohol or other drugs.
    Although the extent of chemical dependence among pharmacists is not known for sure, the
    APhA has suggested that chemical dependency affects a "substantial" number of pharmacists
    and pharmacy students.26
'
    With the leadership of organizations such as the AACP, APhA, and NABP and some State
    pharmacy associations and pharmacy boards, the number of education and treatment programs
    for impaired pharmacists has increased dramatically since the early 1980s. Approximately 80
    percent of the States now have programs to assist impaired pharmacists. These programs are
    usually operated by the State pharmacy associations or by private, non-profit agencies under
    contract to State government agencies. The NABP has encouraged pharmacy boards to
    establish cooperative relationships with rehabilitation programs and to offer rehabilitation as
    either adjuncts or alternatives to formal discipline.

    In five of our six case study States, the pharmacy boards had official connections with
    treatment programs. Three of the boards usually direct impaired pharmacists into g i s e
    programs, sometimes in conjunction with action against the license but sometimes not. The
    other two pharmacy boards havehad only one option when dealing with impaired
    pharmacists: mandatory revocation of license in one State; surrender of the license during
    treatment in the other. In both States, however, recent or pending legislation will grant the
    boards more latitude in the actions they can take. In all these States, impaired pharmacists
    who enter these programs voluntarily are not reported to the boards unless they are considered
    by program staff to be of danger to the public or drop out of the programs prematurely.
    Considerable variation exists among these boards in the extent to which they monitor the
    progress of pharmacists they have ordered into treatment and the degree to which they rely on
    the programs to determine when treatment has been completed successfully.

    Quality of Care

    With pharmacy boards devoting so much of their time and effort to problems of diversion,
    impairment, and technical violations, one might ask how much attention boards focus on
    pharmacists who may be incompetent. The answer is that boards seem to be doing very little
    either to identify pharmacists who may be incompetent or to ensure that practicing
    pharmacists have maintained at least minimal levels of competence.

    During the 3-year period 1986-1988,the States reported to the NABP fewer than two dozen
    disciplinary actions for reasons they described as incompetence. Moreover, board
    representatives from our case study States reported that although their practice acts included
    incompetence as one grounds for discipline, their boards had rarely, if ever, disciplined
    pharmacists for incompetence.27
 Why is this the case? The explanations seem to be that competence is difficult to define and
 the profession of pharmacy does not appear to have achieved consensus on standards of
competence. We found striking contradiction among the board officials with whom we spoke
about competency issues. These officials variously defined competence as "We have no
definition" to "Competence is following the rules." Many officials thought that standards for
judging competence did not exist. Some thought the standards of competence were the
requirements of the ractice acts. Another official said the standards for competence were his
"own gut feelings."&

Without consensus on definitions and standards, it is not surprising that no mechanisms have
been widely instituted for assessing the continued competence of practicing pharmacists. Like
other health licensing boards, pharmacy boards do not require periodic reexamination of
licensees and, with the exception of mandatory continuing education, have not adopted other
approaches helpful in assuring continued competence, such as peer review, practice audits, or
self-assessment procedures. Although pharmacy inspectors do scrutinize pharmacists' practice
sites through routine inspections, this process focuses on the pharmacists' compliance with the
technical requirements of pharmacy law rather than on the quality of his or her performance.
As a result, pharmacists who may be incompetent can continue to practice as long as they do
not come to the attention of the boards and as long as they renew their licenses periodically by
filing a form and paying a fee. Although continuing education is mandatory for pharmacists
in most States and can be effective in improving knowledge and skillsF9 the system does not
require phar~naciststo demonstrate periodically that their skills and knowledge continue to
meet minimum levels of competence.

Concerns about the capacity of health licensing boards to assure the continued competence of
professionals reflect the increasing attention being focussed today on the quality of health care
services generally. Pharmacy boards have only begun to address quality of care issues. As the
executive from a large pharmacy board observed during one of our discussions:

       We don't get into quality of care. Our statute doesn't really address the clinical
       role of pharmacists or the practice of pharmacy outside the pharmacy. It's time
      for us to begin to address standards of practice for this.

Progress has been slow and uneven among the States in defining scope of practice
requirements for the emerging clinical roles of pharmacists. Similarly, the oversight process
of most boards does not address the performance of pharmacists in clinical settings. Thus,
disciplinary actions for inadequate clinical performance have been few. The task is complex
and, as we have seen, presents a major challenge to the pharmacy boards.
The ability of many State pharmacy boards to protect the public is hampered by limitations
in their legal authorities, administrative processes, and resources.

Insufficient Legal Authorities

Many pharmacy boards still do not have adequate legal authority to discipline pharmacists and
pharmacies. The grounds for discipline contained in the pharmacy practice acts are sometimes
vaguely defined. This is particularly true for the complex grounds such as incompetence or
unprofessional conduct. Moreover, some boards lack authority to discipline pharmacists
without full evidentiary hearings, even when they have been convicted in criminal courts or
disciplined by other State boards or government agencies.

Many pharmacy boards do not have a full complement of penalties at their disposal. As we
have seen, all boards can revoke or suspend the licenses of pharmacists and pharmacies.
However, five boards lack authority to impose probation; eight cannot issue reprimands; and
11 are not able to impose restrictions on licenses. At least 15 boards cannot impose fines for
infractions of pharmacy law. Of those boards which can, some are able to impose only small
fines or can fine only for violations of controlled substances laws. Many board
representatives with whom we spoke said fines were an effective intermediate penalty for
disciplining pharmacists and an effective sanction to impose on pharmacies which, because
they are businesses, can be difficult for boards to close down even temporarily. Finally, many
boards lack the authority to require mental, ph sical, or knowledge-based examinations of
                                              Y
pharmacists as part of the disciplinary process. 0

Pharmacy boards are also hampered in their ability to act quickly when they identify
pharmacists (or pharmacies) who pose an immediate danger to the public's welfare. A few
pharmacy boards have no authority to suspend licenses on an emergency basis. A few others
have the authority but only for violations of controlled substances laws. Even boards which
are empowered to take emergency suspensions can have difficulty using this authority. We
encountered several States in which boards impose these suspensions very rarely. This is not
because the boards have no need but because these actions are very time-consuming to
prepare and must meet the very high standards of proof required by the courts or the States'
Attorneys General. Board representatives from one State we visited said emergency
suspensions in their State can take as long as 2 years to obtain.

This inability of boards to act quickly in emergency situations can pose dangers to the health
and welfare of the public. One pharmacy inspector shared with us his concerns about a
pharmacist he knows well who is alcoholic. "I don't have the time it would take to spend with
him to document what I would need. All I can do is try to persuade his wife to make him stop
practicing." An inspector from another State described his efforts with an elderly pharmacist
who continues to practice in his own store despite serious memory problems. In this case, the
inspector feels his only recourse is to convince the pharmacist to retire. In the meantime, he
has been encouraging other staff from the store to watch him closely and the local pharmacy
association to provide some relief assistance so he does not practice as frequently.
 Administrative Barriers

            The ability of many pharmacy boards to protect the public is also jeopardized by
            their limited exchange of information with other entities.

We found that potentially rich sources of information about possible wrongdoing by
pharmacists remain largely untapped by pharmacy boards. In our case study States, board
officials reported their States had no comprehensive laws requiring the reporting to them of
potential or actual wrongdoing by pharmacists. Consequently, they receive few, if any,
referrals from hospitals, nursing homes, insurance companies, or the courts. Individual
pharmacists make few referrals to the boards as do the professional associations of
pharmacists in these States. As a result, pharmacy boards most often learn about potential
cases from consumers, other law enforcement agencies including the DEA, and from
pharmacy inspectors through their inspections of pharmacies or reviews of controlled
substances records and reports.

Moreover, many pharmacy boards have not been sharing information with each other on the
disciplinary actions they have taken. We found that during the period 1986 through 1988,
more than one-fourth of all boards never reported any of their disciplinary actions to the
voluntary Disciplinary Clearinghouse maintained by NABP. In fact, two-thirds of the boards
did not report any actions for at least 1of these 3 years. Similarly, since 1985 only one-fourth
of the States reported any disciplinary actions to the clearinghouse maintained by National
Clearinghouse on Licensure, Enforcement, and Regulation (CLEAR). This failure of so many
pharmacy boards to regularly share important disciplinary information with each other
increases the vulnerability of the public to wrongdoers who are licensed to practice in more
than one State or who transfer their licensure to other States to avoid discipline.

Not only do many pharmacy boards not share information with each other, but a sizeable
number do not publicize their disciplinary actions even to the professional pharmacy
community in their States or to the general public. Only slightly more than half the pharmacy
boards were participating in NABP's newsletter project in 1988. Funded primarily by
NABP's Bureau of Voluntary Compliance, these State newsletters contain both national news
and State-specific information, including summaries of disciplinary actions, in an effort to
enhance pharmacists' voluntary compliance with State and Federal pharmacy laws.

           The ability of pharmacy boards to protect the public by assuring prompt discipline
           for serious offenses is hampered by the time-consuming nature of the disciplinary
           process itself. This process can be very elaborate and often unwieldy for dealing
           with detailed pharmacy law and for adjudicating the serious, often very complex,
           disciplinary cases.

Pharmacy boards vary considerably in the specifics of their disciplinary processes and in the
latitude given to administrative staff for resolving complaints and dealing with violations.
Nevertheless, we found that most boards have tried to maximize resources by prioritizing the
cases they pursue and by adopting multiple levels of intervention for dealing with different
kinds of violations.

The enforcement process is swiftest and simplest for the least serious violations. Minor
infractions, frequently those discovered during routine pharmacy inspections, are often dealt
with by the inspectors immediately with written or verbal warnings. More serious violations,
or repeated or uncorrected minor violations, are typically dealt with through meetings between
the pharmacist and a supervisory inspector or an informal committee which includes some
board members. This strategy of prioritization seems to serve the boards well. It permits the
administrative staff to resolve the majority of complaints and violations through various
informal mechanisms so that only the most serious cases are considered by the entire board for
formal discipline. In recent years, these kinds of cases have primarily involved drug
diversion, impairment of pharmacists due to abuse of alcohol or drugs, and serious fraud.

The irony, however, is that the most serious cases, including those which presumably pose the
greatest threat to the public's welfare, are those cases which can take the longest time for
boards to deal with. These cases are often complex ones requiring time-consuming
investigation and legal preparation. These cases can also take a very long time to process
because of the multiple reviews and clearances required as part of the disciplinary process.
These reviews often involve staff from different State agencies which usually have competing
priorities. Many pharmacy boards, for example, must share inspectors and investigators with
other licensing boards or must rely on staff from offices of attorney general for their legal
assistance.

Furthermore, long delays can result from the hearing process itself. Representatives from
several boards complained to us about the long delays which result in their States from the
frequent continuances granted to defendants. One board has no regularly scheduled meetings
for considering disciplinary cases. Long delays thus result from the logistical difficulties of
arranging members' schedules. To make matters worse, if the case is not concluded in I day
or a last minute continuance is granted, the lengthy process of rescheduling the hearing must
begin anew. Finally, delays can occur after the hearing process is concluded due to stays
granted during the appeals process or, in those States with boards which are advisory, from
further deliberations by other State officials.

Some States have taken steps to expedite their disciplinary process. Some do not require the
full judicial process or evidentiary hearings for certain kinds of cases. Others are making
increased use of stipulated settlements negotiated by staff for subsequent approval by board
members or are relying on Administrative Law Judges rather than evidentiary hearings of the
boards for those cases which cannot be stipulated.

Despite measures such as these, the investigation and adjudication processes can take a long
time. Several board officials from our case study States told us of cases taking a year, 2 years,
or even longer before the board had concluded its deliberations. Barriers which hamper more
timely resolution of the most serious cases exist in many States. Nearly one-third of the board
executives with whom we spoke singled out administrative bottlenecks in their States'
administrative processes as major factors hindering their boards' efforts to assure prompt
discipline.

Inadequate Resources

Nearly 60 percent of the pharmacy board executives with whom we spoke thought their ability
to enforce harmacy laws and to discipline effectively has been hampered by insufficient
          R
resources. The fees boards charge their licensees are one indicator of resources available to
boards as the budgets for two-thirds of the pharmacy boards reportedly depend on the amount
of receipts they collect. We examined the renewal fees for both pharmacists and pharmacies
and found them to be quite low. This was the case even though 20 percent of the States
increased their renewal fees for pharmacists and 25 percent of the States increased the renewal
fees for pharmacies between 1987 and 1988. The average annual cost of a pharmacist's
license was $43.12 in 1988, an increase of less than $4 since 1987. The average annual cost
of a pharmacy permit was $84.33 in 1988, a decrease of slightly more than $5 since 1 9 8 7 . ~ ~

Insufficient resources hinder the ability of pharmacy boards to enforce the laws and discipline
pharmacists in several important ways. First, the number of staff available to do the job
promptly and thoroughly may be insufficient. Although representatives from several boards
mentioned they had had small increases in staff in the last few years, many more indicated a
need for additional legal expertise and for more pharmacy inspectors. The staff of many
boards are stretched thin. On the average, pharmacy boards have five inspectors for
conducting inspections and investigating reports of potential wrongdoing. In many States,
these inspectors are shared with other boards.33 In consequence, fewer and fewer pharmacy
boards have been conducting routine inspections of pharmacies once a year, a process
important for educating pharmacists as well as for identifying violations. Only one of our
case study States reported being able to conduct routine inspections annually. Another rarely,
if ever, performs them.

Salaries which are not competitive is a second major consequence of limited resources.
Several board representatives complained to us about the inability of their States to attract and
retain experienced legal staff to work with them in the development and prosecution of cases.
Others mentioned the difficulties of recruiting pharmacists to work as inspectors given the
higher salaries available to them elsewhere. Even the level of compensation offered to board
members is low in most States: an average per diem of $49.58 plus expenses last year.34

Finally, pharmacy boards faced with insufficient resources sometimes do not have the support
services critical to their overall performance. Orientation for board members and training for
staff, essential given the scope and dynamism of boards' regulatory responsibilities, is limited
in some States. Computerization; vital for keeping current records on licensees and tracking
disciplinary actions, has lagged for some as well. We witnessed the deliberations of one
pharmacy board, for example, which had to rely on the defendant for information about
previous disciplinary actions.
                                  RECOMMENDATIONS

Given the situation described in the previous pages, we offer several recommendations with
respect to the enforcement and disciplinary practices of State pharmacy boards. Our central
recommendations are directed to State governments and to State boards of pharmacy. We
address several other important recommendations to the National Association of Boards of
Pharmacy, the American Pharmaceutical Association, and the U.S. Public Health Service.

THE STATE GOVERNMENTS

           State governments should ensure that State pharmacy boards have adequate
           resources and authority for carrying out their enforcement responsibilities
           effectively.

If boards are to protect the public, they need adequate resources. They need a sufficient
number of well-qualified, adequately paid staff and board members. They need computer
systems and training for both staff and board members.
                                                                                    . .,
Resources available to the boards need not be limited by overall constraints on stare budgets.
States should ensure that the fees for pharmacy licenses and permits generate revenues
sufficient for the boards' needs and that the revenues generated be available for use by the
boards. Other mechanisms for generating revenues also exist. We learned of one board which
has authority to recover from defendants the costs of the time incurred by the board's
investigators and lawyers.

Boards need a full range of disciplinary options at their disposal--options which are effective
and flexible for both pharmacists and pharmacies. States ought to have written disciplinary
guidelines for imposing penalties. Although each case is unique, guidelines which describe
ranges of penalties for various offenses are important for assuring fairness and consistency in
board decisions and useful for practitioners.

Pharmacy practice acts should state clearly and specifically the grounds for discipline so that
both regulators and pharmacists understand what is and is not acceptable. Practice acts too
should empower boards to require physical, mental, or knowledge-based examinations of
pharmacists when necessary.

States should ensure that boards have authority to act promptly in order to protect the public's
welfare. In certain cases, boards should be able to take action against licensees without full
evidentiary hearings. They should be held to standards of proof which protect the rights of
pharmacists but are not so burdensome as to jeopardize the rights of the public. It is
imperative that boards have both the authority and a workable process for suspending
immediately the licenses of those who threaten the health and safety of the public. This is not
the case now in most States.
           State governments should take steps to streamline the administrative process so
           that State pharmacy boards are able to process disciplinary cases more efficiently.

The time-consuming nature of the disciplinary process in many States coupled with the
inability of most boards to effect emergency actions jeopardizes the protection afforded by
boards to the public. States should streamline their processes as much as possible and rid
them of unnecessary reviews and other time-consuming procedures.

           State governments should take steps which enhance the capacity of pharmacy
           boards to deal with drug diversion and impairment of pharmacists.

By strengthening their overall efforts to address drug diversion and impairment, States can
enhance the capacity of pharmacy boards, as well as other health professional boards, for
dealing more effectively with these serious problems. State governments might consider, for
example, supporting treatment programs for all health professionals including pharmacists
who come to the attention of their licensing boards.

States should consider adopting stronger measures for combatting drug diversion such as
separate registrations for controlled substances and multiple copy prescription programs.
Such approaches have enhanced the enforcement efforts of pharmacy boards as well as those
of other agencies. They have been strongly supported by the DEA over the years and more
recently by The White House Conference for a Drug Free America.35

STATE PHARMACY BOARDS

           State pharmacy boards should review the outcomes of their disciplinary process
           and evaluate whether they are affording the public the maximum protection
           possible.

It is imperative that pharmacy boards carry out their disciplinary responsibilities forcefully.
The disciplinary data on serious actions suggest that too many boards have not been imposing
rigorous discipline over the last few years. To be sure, many boards discipline wrongdoers in
less formal ways, and many boards too have been hindered by constraints of various kinds.
Nonetheless, that so many boards imposed so few of these most serious actions during the last
3 years suggests a need for greater intensity in their disciplinary efforts.

           State pharmacy boards should disseminate more broadly information on the
           disciplinary actions they have taken.

Pharmacy boards should do a better job of sharing with each other information on the serious
disciplinary actions they take. Failure to report completely and timely on serious actions to
CLEAR and to the NABP Disciplinary Clearinghouse limits the ability of boards to protect
the public from pharmacists who escape discipline in one State by moving to another State
where they are also licensed. It also undermines the effectiveness of NABP's process for
 verifying the credentials of those pharmacists wishing to transfer their licensure from one
 State to another. State boards should take immediate steps to improve their voluntary
 reporting through these existing mechanisms. They should not delay until implementation of
 the new practitioner databank, authorized under Section V of the Medicare and Medicaid
 Patient and Program Protection Act of 1987, when reporting of disciplinary actions becomes
 mandatory.

 NATIONAL ASSOCIATION OF BOARDS OF PHARMACY

For many years, the National Association of Boards of Pharmacy (NABP) has provided
important leadership to State pharmacy officials in the areas of licensure, discipline, and
regulation of pharmacy practice. As pharmacy practice continues to change and the demands
on boards continue to grow, we urge the NABP to continue to provide this leadership to State
boards. In so doing, we encourage the NABP to broaden and increase its financial base so it
can continue these important efforts independent of any financial association with pharmacy
organizations which may be regulated by its membership. We offer the following specific
recommendations:

           The NABP should intensify its efforts to help State pharmacy boards address the
           changing nature of pharmacy practice, particularly with respect to the clinical roles
           of pharmacists.

The NABP should focus particular attention on assisting boards in developing regulatory
requirements and oversight procedures which address patient care responsibilities of
pharmacists. In so doing, the NABP should work with other professional pharmacy
organizations, especially the APhA, the AACP, the American Council on Pharmaceutical
Education (ACPE), the American Society of Consultant Pharmacists (ASCP), and the
American Society of Hospital Pharmacists (ASHP).

The NABP should also help boards identify useful strategies for dealing with drug diversion.

           The NABP should work with State pharmacy boards and national professional
           pharmacy organizations to explore viable approaches to assessing the continued
           competence of licensed pharmacists.

We agree with the conclusions of the 1975 AACPIAPhA Task Force on Continuing
               that pharmacists should be required to demonstrate continued professional
competence to State licensing boards as a condition of relicensure. Most boards have adopted
mandatory continuing education as a mechanism for assuring continued competence. Boards
now need to explore and experiment with various mechanisms for assessing periodically the
professional competence of practicing pharmacists. The task is complex and controversial.
The NABP has a vital role to play in charting the direction for this effort involving State
boards and the professional pharmacy organizations.
THE AMERICAN PHARMACEUTICAL ASSOCIATION

           The American Pharmaceutical Association (APhA) should exercise its leadership
           in encouraging more peer review of pharmacists' professional performance by
           national and State professional pharmacy organizations.

The relative lack of peer review by professional pharmacy organizations is unfortunate.
Without a process to permit review of professional performance by peers, the profession
abdicates responsibility for policing itself and undermines the confidence of the public in its
professionalism. It is important that the professional pharmacy organizations renew these
efforts and be guided less by the threat of antitrust litigation than by the examples of the few
State pharmacy associations and the associations of other professions such as medicine,
dentistry and podiatry which have more active peer review programs. As the most broadly
based professional organization of pharmacists, the APhA should take the lead in this effort
which should also include its affiliated State associations as well as other national professional
organizations such as the ASCP and the ASHP.

           The APhA should work with the NABP and other professional pharmacy
           organizations to develop appropriate methods for assessing the continued
           competence of pharmacists.

Ten years ago, the APhA and the AACP pioneered the development of the professional
practice standards for pharmacy37-the fust order of business recommended in 1975 by the
Task Force on Continuing Competence. The second order of business charted by the Task
Force was the development and implementation of mechanisms for assessing performance
based on the standards. Little has been accomplished in this arena during the last 10 years.
We urge the APhA to work with other professional and regulatory organizations to experiment
with approaches such as self-assessment tests, peer review, and practice audits. The task is
difficult and complex but, as the experience of several medical specialty boards suggests, is
nonetheless possible.38

THE U.S. PUBLIC HEALTH SERVICE

           The Public Health Service (PHs) should increase its support to the NABP in its
           efforts to provide leadership to State pharmacy boards.

The PHs has provided financial assistance to other professional organizations but has had
little involvement over the years with the NABP. We encourage the PHs to explore ways to
support the NABP in its efforts to assist the boards. The PHs, for example, might consider
working with the NABP in developing and piloting mechanisms for assessing the continued
competence of pharmacists. The PHs with its broad purview is well positioned to encourage
broad interdisciplinary efforts toward this end.
                       COMMENTS ON THE DRAFT REPORT
                       AND OIG RESPONSE TO COMMENTS

We received comments on the draft report from the Health Care Financing Administration and
the Public Health Service within the Department of Health and Human Services and from the
Drug Enforcement Administration in the Department of Justice. Comments were also
received from the American Association of Colleges of Pharmacy (AACP), American
Pharmaceutical Association (APhA), American Society of Hospital Pharmacists (ASHP),
National Association of Boards of Pharmacy (NABP), and the National Clearinghouse on
Licensure, Enforcement and Regulation (CLEAR).

The OIG response to the major issues raised in these comments from these government
agencies and national organizations are contained below. The detailed comments fiom these
agencies and organizations appear in appendix A.

Overall, no one disagreed with our recommendations that State governments should ensure
that State boards of pharmacy have adequate resources and authorities and should streamline
administrative processes to enhance efficiency. Our recommendations that State pharmacy
boards review the outcomes of their disciplinary processes and disseminate more broadly the
outcomes of disciplinary action to assure maximum protection of the public were also
generally supported. Further, no one disagreed with our recommendation that the APhA, the
NABP, other professional pharmacy organizations, and the State boards should work together
to explore and develop viable approaches for assessing the continued competence of licensed
pharmacists.

The APhA and the NABP both had concerns about our recommendation calling for more peer
review of pharmacists' professional performance by national and State professional pharmacy
organizations. The NABP was concerned that our call for stronger peer review suggested a
weakening or replacing of the disciplinary responsibilities of the pharmacy boards. The APhA
was concerned about professional associations having adequate resources to undertake peer
review efforts and about the possibility of antitrust litigation.

In our view, peer review of pharmacists' professional performance by the professional
organizations need not, and indeed should not, duplicate or replace the legal responsibilities of
the State pharmacy boards for licensure and discipline. We recognize that peer review, too,
has both cost and legal implications for professional associations. Nonetheless, we think that
as professional organizations, the pharmacy associations have the responsibility and the
opportunity to play an important role in identifying and assisting practitioners whose
performance falls below acceptable standards and in referring to the State boards those whose
performance has violated legal requirements.

Health Care Financing Administration

      The HCFA was generally supportive of our recommendations.
Public Health Service

     We are pleased with PHs' concurrence with our recommendation to provide increased
     support to NABP in its efforts to provide leadership to State pharmacy boards. We
     recognize that PHs has worked collaboratively with NABP over the years and
     encourage PHs to consider some financial assistance for specific undertakings as it has
     provided in the past to other national organizations of the various State health
     professional boards.

     The PHs observes that the estimates of active pharmacists used in the report are
     overstated. We, too, have recognized the discrepancy between the PHs projected
     estimates and the manpower estimates available from the NABP and the State boards.
     The rationale for the estimates we used is explained in appendix C and, we believe,
     remains valid.

Drug Enforcement Administration

     We are pleased with DEA's positive response to our findings and recommendations. As
     noted in the report, DEA has frequent interactions with State boards of pharmacy
     involving their respective responsibilities for regulating the distribution of controlled
     substances.

American Association of Colleges of Pharmacy

     We appreciate the positive comments from the AACP on our report and its support, in
     particular, of increased professional peer review.

American Pharmaceutical Association

     We are pleased that APhA agrees generally with our recommendations to the State
     governments and the State pharmacy boards.

     As noted above, APhA has concerns about our recommendation that it encourage more
     peer review by professional pharmacy associations. We recognize the important
     leadership exercised by the APhA over the years in addressing issues such as pharmacist
     impairment and in developing standards of practice and a Code of Ethics for the
     profession. While the difficulties associated with peer review efforts are significant, as
     the APhA points out, we are pleased that it plans to consider carefully this ,
     recommendation.

     We regret that the APhA did not comment specifically on our recommendation that it
     work with the NABP and other professional pharmacy organizations to develop
     appropriate methods for assessing the continued competence of pharmacists. We
     continue to regard this effort as a high priority which warrants the attention and
     leadership of the APhA.
American Society of Hospital Pharmacists

     We appreciate the response from ASHP, which, while not addressing specifically the
     findings and recommendations of the report, offers more general comments about our
     inquiry as it relates to the practice of pharmacy today.

     The ASHP suggests that the report should have addressed more completely the public
     health hazards of pharmacist incompetence and the role of boards in regulating
     non-pharmacist and mail order dispensing of prescription drugs. We believe an in-depth
     examination of these issues was beyond the purview of this particular inquiry which
     focussed on an assessment of the disciplinary practices of the State boards of pharmacy.

     We strongly disagree with the ASHP comment that regulation of both the dispensing
     and clinical aspects of pharmacy practice by State pharmacy boards would be "highly
     unrealistic and unwise." On the contrary, we believe regulation of the entire spectrum
     of pharmacy practice is essential to the responsibilities and mandates of State boards to
     protect the public by assuring safe, competent practice of pharmacy regardless of
     practice setting. As we noted in the report, a major challenge facing the boards today is
     the need to address the changing nature of pharmacy practice in which incre2ing
     numbers of practitioners are assuming responsibilities for patient care and well as for
     prescription dispensing.

National Association of Boards of Pharmacy

     We appreciate the overall positive response of the NABP to the findings and
     recommendations of the report. Our comments on particular issues raised by the NABP
     follow.

     The NABP asks that we include in the report the actual disciplinary data collected from
     the States to support our findings regarding the incidence and rates of serious discipline
     imposed by the boards in recent years. These State-specific data were not included in
     the draft of the report because the focus of our inquiry emphasized a national picture of
     the disciplinary practices of the State boards. In response to this particular request, we
     have included as part of the final report (see appendix B) the State-specific data we
     collected. These data were gathered through telephone discussions with pharmacy
     board officials in all States in order that we might have for our analysis the most
     comprehensive, up-to-date data available. In those few instances where data are
     missing, the State officials were unable to provide us with numbers of serious
     disciplinary actions for their boards. A detailed explanation of our methodology
     appears in appendix C.

     As noted and discussed above, the NABP is concerned with our call for strengthened
     peer review by the professional pharmacy associations. In our view, such an effort
     would not duplicate or replace the responsibilities of the State boards but would be
     complementary to their efforts to protect the public.
     The NABP makes note of our comment in the report about the "corresponding
     responsibility" of pharmacists for the legitimacy of the prescriptions they dispense for
     controlled substances. This responsibility is clearly articulated in Federal law (Title 21,
     Code of Federal Regulations, Section 1306.4), and, as noted in the report, is being
     aggressively enforced by some pharmacy boards, including three of our six case study
     States, as a critical strategy for curtailing drug diversion.

     We are concerned with the thrust of the NABP comments about emergency suspensions
     of licenses. We reiterate the importance to the public of boards having adequate
     authorities and workable processes for suspending, on an emergency basis, the licenses
     of pharmacists who threaten the health and safety of the public. Whatever the reasons,
     the situations described in the report are, in our view, simply not defensible.

National Clearinghouse on Licensure, Enforcement and Regulation

     The comments from CLEAR were generally positive. However, with respect to our
     analysis of the incidence of serious disciplinary actions imposed by the boards between
     1986 and 1988, CLEAR comments that further explanation for the increases or lack of
     increases in these actions would have been helpful. We agree that such an explanation
     is important. In response, we suggest that the value of our inquiry was to document the
     disparity that exists nationally in the rate of serious discipline imposed by the boards
     based on our collection and analysis of the most recent, most comprehensive
     disciplinary data available at present from State pharmacy boards. Although we suggest
     possible reasons for this disparity in our report, further exploration was beyond the
     purview of this particular inquiry and is, we believe, more properly the responsibility of
     the State governments and their respective boards of pharmacy.
                                     APPENDIX A

                        COMMENTS ON THE DRAFT REPORT

We received comments on the draft report from the Health Care Financing Administration and
the Public Health Service within the Department of Health and Human Services and from the
Drug Enforcement Administration in the Department of Justice. Comments were also
received from several national organizations including the American Association of Colleges
of Pharmacy (AACP), American Pharmaceutical Association (APhA), American Society of
Hospital Pharmacists (ASHP), National Association of Boards of Pharmacy (NABP), and the
National Clearinghouse on Licensure, Enforcement and Regulation (CLEAR). The actual
comments received follow in this appendix.
                                                                           Memoralidurn
Date
            MAR 1 2    m
          Gail R. Wilensky, Fh.D.
From      Mministrator

Subject
          OIG Draft Report:      "State   Discipline of Fhannacists" (CVII-01-89-89020)

          Ihe m            r Gemzal
          O f f i c e of the Secretary


              We are                to y w request for ccmPents on the arbject report.
              "ile no remrpnenjatiom m made directly to HCTA, we beliwe that
          those made to the other entities are raascnable. We a~preciatethe
          CPPomity to review the m t s of this study.
          DEPARTMENT OF HEALTH & HUMAN SERVICES                                                  Public Health Serv~ce



                                                                                                 Memorandum
               MAR20 1990
Date      '


From
          Assistant Secretary for Health


Subject
          Comments o n O f f i c e o f I n s p e c t o r G e n e r a l ( O I G ) D r a f t R e p o r t " S t a t e
          D i s c i p l i n e o f P h a r m a c i s t s , " OAI-01-89-89020,    J a n u a r y 1990


To        I n s p e c t o r G e n e r a l , OS


          As r e q u e s t e d , we h a v e r e v i e w e d t h e s u b j e c t d r a f t r e p o r t a n d h a v e
          t h e f o l l o w i n g c o m m e n t s o n t h e r e c o m m e n d a t i o n a d d r e s s e d t o PHS a n d
          s t a t i s t i c a l data cited in the report.

          O I G Recommendation

          The P u b l i c H e a l t h S e r v i c e ( P H s ) s h o u l d i n c r e a s e i t s s u p p o r t t o
          t h e NABP i n i t s e f f o r t s t o p r o v i d e l e a d e r s h i p t o S t a t e p h a r m a c y
          boards.

          PHs Comment

          We c o n c u r .        PHs i s c o l l a b o r a t i n g w i t h t h e N a t i o n a l A s s o c i a t i o n o f
          B o a r d s o f P h a r m a c y (NABP) i n i t s e f f o r t s t o p r o v i d e l e a d e r s h i p t o
          S t a t e p h a r m a c y b o a r d s t h r o u g h i n f o r m a l m e e t i n g s a n d by i t s
          p a r t i c i p a t i o n o n t h e P h a r m a c y Manpower S t e e r i n g C o m m i t t e e w h i c h
          NABP c o - c h a i r s a l o n g w i t h t h e A m e r i c a n A s s o c i a t i o n of C o l l e g e s o f
          Pharmacy.             H o w e v e r , PHs d o e s n o t p r o v i d e f i n a n c i a l o r t e c h n i c a l
          a s s i s t a n c e t o t h e NABP d u e t o u n a v a i l a b i l i t y o f f u n d s .

          The H e a l t h R e s o u r c e s a n d S e r v i c e s A d m i n i s t r a t i o n t h r o u g h i t s
          B u r e a u of H e a l t h P r o f e s s i o n s , i s p u r s u i n g n o n - f i n a n c i a l
          c o l l a b o r a t i v e e f f o r t s w i t h o t h e r Government components ( H e a l t h
          Care F i n a n c i n g A d m i n i s t r a t i o n and N a t i o n a l I n s t i t u t e s of H e a l t h ) ,
                                                                                            .
          t o i d e n t i f y ways a n d means t o p r o v i d e t e c h n i c a l a s s i s t a n c e
          t o NABP.

          T e c h n i c a l Comment

          T h e d r a f t r e p o r t o n p a g e s 2 a n d A2 n o t e d t h e e s t i m a t e d n u m b e r o f
          a c t i v e p h a r m a c i s t s i n t h e U.S. a s b e i n g a p p r o x i m a t e l y 1 8 3 , 0 0 0 .
          T h i s number i s o v e r s t a t e d a c c o r d i n g t o d a t a c o m p i l e d by t h e
          H e a l t h R e s o u r c e s and S e r v i c e s A d m i n i s t r a t i o n ' e Bureau of H e a l t h
          Professions.              Based on t h e 1978 f e d e r a l l y f u n d e d Pharmacy
          I n v e n t o r y , which i s                                                         S u p p l y Model
          E s t i m a t e of a c t i v e                                   U.S. f o r 1 9 8 9 w a s 1 5 7 , 9 0 0 .



                                             James          M a s o n , M.D.,      Dr.    P.H.
                                                           Drug Enforcement Administration




    Honorable Richard P. Kusserow
    Inspector General
    Department of Health and Human
      Services
    Washington, D.C. 20201
    Dear Mr. Kusserow:
            This is i n response t o your d r a f t r e p o r t "State Discipline of
    Pharmacistsu dated January 1990. I commend your o f f i c e and those involved
    f o r t h i s excellent evaluation of t h e pharmacy d i s c i p l i n a r y process. h e
    Drug Enforcement Administration's (DEA) concern i n this matter p e r t a i n s t o
    controlled substances, while the report is addressing t h e d i s c i p l i n e of
    pharmacists by s t a t e pharmacy boards f o r i n f r a c t i o n s dealing with a l l
    phases of pharmacy p r a c t i c e . Specific a r e a s o f study i n t h e report agree
    with recommendations t h a t have been made i n t h e p a s t by s t a t e o f f i c i a l s a t
    DEA national conferences.
              The section of t h e report dealing with Multiple Copy Prescription
    Programs (MCPP) on page 6 is supportive o f a program which has been
    endorsed by t h e DEA. MCPP i s an e f f e c t i v e d e t e r r e n t t o pharmaceutical
    diversion. Data compiled from s t a t e s who have i n s t i t u t e d t h e program
    document a 30 t o 50 percent reduction i n Schedule 11 prescriptions. In
    a d d i t i o n , agencies responsible f o r i n v e s t i g a t i n g diversion of controlled
    substances have successfully applied MCPP i n t e l l i g e n c e information i n
    t a r g e t i n g i l l e g a l a c t i v i t i e s . A t t h e present time, nine s t a t e s have
-   enacted MCPP with 40 percent of t h e physicians and pharmacists i n t h e
    United S t a t e s operating under t h e program.
                                                                                   .
             The DEA concurs with your recommendation for separate r e g i s t r a t i o n f o r
    c o n t r o l l e d substances. This r e c o m n d a t i o n responds favorably t o t h e
    finding t h a t many boards do not have adequate l e g a l authority t o d i s c i p l i n e
    pharmacists. The separate r e g i s t r a t i o n creates a n avenue through which t h e
    j u d i c i a l and administrative processes can t a k e appropriate a c t i o n against
    i n d i v i d u a l s responsible f o r t h e diversion of c o n t r o l l e d substances.
          m e DEA recognizes t h a t inadequate resources, a d m i n i s t r a t i v e b a r r i e r s
and i n s u f f i c i e n t l e g a l a u t h o r i t i e s reduce t h e a b i l i t y o f pharmacy boards t o
enforce pharmacy laws and t o d i s c i p l i n e e f f e c t i v e l y . I n response t o t h i s
s i t u a t i o n , t h e United S t a t e s Code was amended i n 1984 t o enhance t h e DEA's
a u t h o r i t y t o revoke or suspend DEA c o n t r o l l e d substance r e g i s t r a t i o n s
issued t o r e g i s t r a n t s t h a t are i n c o n s i s t e n t with t h e public i n t e r e s t . This
amendment t o t h e Code has enabled t h e DEA t o work i n tandem with t h e states
and h a s f i l l e d a void c r e a t e d when states have been unable t o e f f e c t i v e l y
discipline violative registrants.
     h e DEA had enjoyed a c l o s e working r e l a t i o n s h i p with t h e National
Association of Boards o f Pharmacy (NABP) and I was pleased t o see t h e
recormendation t h a t t h e NABP continue t o provide l e a d e r s h i p t o t h e state
boards.
       I f e e l t h e f i n d i n g s and recomnendations i n t h e r e p o r t are j u s t i f i e d ,
and t h e information and methodology o f research was thorough. I thank you
f o r providing me with t h e opportunity t o cwment on a s u b j e c t t h a t is
important t o t h e DEA.

                                                          Sincerely,      A




                                                          8
                                                          J n C. Lawn
                                                              inistrator
                                            5
                                            4




                                            &-.rs~-

                               AMERICAN ASSOCIATION
                              OF COLLEGES OF PHARMACY
                                                      .   .

                                                              .   '
                                                                      .
                                                                      t   "
                                                                          'k.'   A




     February 27, 1990


+.   hlr. ,Richard P. Kusserow
     Inspector General
     Department of Health and Human Services
     Washington, DC 20201

     Dear Mr. Kusserow:

     Thank you for the opportunity t o comment o n your draft repon, "State Discipline of
     Pharmacists." You and the Boston Regional Office are t o be congratulated o n the timeliness
     and accuracy of your obsenrations and recommendations.

     After careful review, we offer several obsemations:

            o      The Report refers t o quality of health care in several places. We observe that
                   it is difficult for regulator). boards, including those in pharmacy, t o assess and/or
                   ensure quality. For example, Boards mandate requirements t o enter practice
                   (i.e. education, experience, licensure) and have implemented procedural
                   requirements (i.e. continuing education, patient profiles, patient consultation)
                   with little objective evidence that these affect the quality of pharmaceutical
                   senices. Perhaps research and demonstration projects in the area of outcome
                   measures/assessments are needed.

                   It also follons that standards, as the Report has aclmowledged, exist within the
                   profession. Specifically, the APhA/AACP Standards of Practice, published over
                   a decade ago, are currently undergoing review for revision/revalidation. These
                   Standards are used by colleges of pharmacy in cumculum development and
                   assessment, state boards of pharmacy and as a foundation for the NABP's
                   national licensing examination. Additionally, ASHP has a iomprehensive set of
                   facility, personnel and process standards for various types of institutional
                   practices. The ASHP's standards are excellent examples of the profession's
                   attempt t o ensure the quality of pharmaceutical services. It is essential that          --
                   efforts in standard development and refinement continue.

            o      Clearly pharmacy practice (and health care) is changing at a rapid pace. If we
                   assume that such change is basically in the best interest of the public health,
                   then pharmacy boards should attempt t o stimulate change rather than impede
                   it. There is a thin line bcnvccn reality and perception and between boards
                   sening in the public interest (as they are charged) and in the interest of the



                       1426 Prince Street   Alexandria, Virginia 22314               ( 7 0 3 ) 739-2330
hlr. hchard P. Kusserow
February 27, 1990
Page 2


              profession. However, pharmacists are professionals and need to be held
              responsible for their actions. Pharmacy boards should revise their pharmacy
              practice acts so as to enable pharmacists to expand the scope of their practices
              to the limit as defined by the profession, not testria practice.

         o    The Repon's observation about the lack of peer review by the profession is a
              valid and powerful one. In the face of this mid, dl the public has to rely on
              is the state regulatory agencies. The recent articulation of the concept of
              pharmaceutical care (Pbannrrcy in tbe 21st Century, copy enclosed) which
              focuses on the outcomes of drug therapy, suggests that pharmacy needs to be
              responsive to calls for peer review.

If you have any questions or require additional clarification, please feel free to call on us.

Sincerely,




Carl E. Trinca, Ph.D.
Executive Director



enclosure
                 2215 Const~tutmAvenue. W
Pharmaceutical   wash~ngton.DC 20037                      TheNational Prof~'ona1
Association      (202)6284410 FAX (202)783-2351           Society of Phsmrtr




March 6, 1990

Richard P. Kusserow
Inspector General
Department of Health and Human Services
Washington, DC 20201

Dear Mr. Kusserow:

The American Pharmaceutical Association is pleased to respond to the
draft report of the Office of the Inspector General entitled "State
Pisci~lineof pharmacist^". As the national professional society of
pharmacists, we are gratified by the substantial analysis that our
profession has received in recent reports from your office. More
importantly, we are pleased that the critical role that pharmacists play
in providing quality health services to patients is finally becoming
better understood at the federal level. We appreciate the department's
recognition of APhA's leadership role for the profession on these issues.

Our comments include both general reflection on the report, its findings
and recommendations, as well as specific responses to the recommendations
addressed directly to APhA. We ask that they be carefully considered in
the preparation of the final report on this subject.


WSPONSE TO FINDINGS AND   THE OVERALL REPORT
In general, the draft report's findings appear to have been developed in
a fair and reasonable manner, and are presented in a balanced fashion.
We particularly commend the IG staff for making on-site visits to examine
first hand the workings of several boards of pharmacy.

The draft report identifies several related issues regarding pharmacy
boards' capabilities and resources. APhA certainly agrees that boards of
pharmacy should be provided with the financial, materfal and human
resources necessary to accomplish their work. While these needs
obviously vary from state to state, it is clear that no board of
pharmacy, such as one cited in the report, can be expected to effectively     ,,
accomplish its mission with a budget of $2500 and one part-time staff
person. We hope that the final report will stimulate states to provide
boards of pharmacy with the resources they require.

The draft report identifies two other substantial general factors that
impact on the capabilities of boards of pharmacy:

    o the greater complexity of the tasks and responsibilities of
      pharmacy boards compared to their counterparts in other
      professional disciplines; and,
Richard P. Kusserow
March 6 , 1990
Page - 2 -


    o the dramatic changes in the nature and scope of pharmacy practice
      in recent years, with increased emphasis on patient care and
      educational activities of pharmacists in many different types of
      practice settings.

The former issue is not easily resolved. Pharmacy is unique in that both
its practitioners and the settings in which they practice are regulated
by the same governmental entity. Pharmacists are responsible for the
proper control and provision of both powerful and potentially dangerous
medications and important patient and information services. This unique
mix of services and products places on pharmacists, and theoretically
requires of the boards which regulate their practice, levels of
regulatory control that are the most demanding and detailed in the health
professional regulatory arena.

As mentioned in the draft report, control efforts to date have been
focused on structural and procedural components (i.e. equipment and
plumbing requirements within pharmacies, restrictions on which pharmacy
personnel may remove or place medication containers on pharmacy shelves,
controlled substances classification and tracking) rather than on outcome
measures of the pharmacy services provided. APhA agrees that measuring
the quality of care outcomes is the desired goal. Nevertheless, as the
entire health care field is learning, the shift from measuring process to
measuring outcome in delivery of care is a very complex task which will
require both additional resources and fundamental re-evaluation of
regulatory and accreditation activities.

The ability of pharmacy boards to keep up with the rapid changes in
pharmacy practice is, in our view, less problematic. Although much
remains to be done, APhA has been encouraged in recent years by changes
in a few state pharmacy practice acts which have articulated substantial
patient care and education functions in addition to traditional
medication distribution and control activities. Often, these changes
have been a result of effective collaboration between state pharmacy
associations, the National Association of Boards of Pharmacy (NABP), and
the state boards of pharmacy, using the APhA/AACP Standards of Practice
and components of NABP's Model Practice Act. Some state boards have also
either expanded or modified their membership to include practitioners
from the many varied types and settings of pharmacy practice now in
existence. This trend should be encouraged, in order to assist pharmacy
boards in their understanding of the full scope of pharmacy practice now
and for the future.

The draft report notes the emphasis currently placed on drug diversion
and pharmacist impairment by boards of pharmacy. These issues,
reflective of perhaps our society's greatest social problem, must be
addressed by all of us. APhA does support the role of boards of pharmacy
in monitoring conpliance by pharmacists with all laws and regulations
governing drug diversion. It is important to point out, however, that
arrest records for D U controlled substance violations in the most recent
years indicate pharmacist involvement in less than one-tenth of one
percent of cases.
Richard P. Kusserow
March 6 , 1990
Page - 3 -


The draft report is correct in its identification of impairment and the
accompaniment of drug diversion for self-use as a problem which the state
boards of pharmacy, along with the profession as a whole, have the
responsibility to address. 'In fact, the profession--through APhA's
singular leadership--and the boards of pharmacy have undertaken an
aggressive program to do just that.

That program involves the establishment of Pharmacist Recovery Programs
in 46 states over the past eight years. Established in cooperation with
state boards of pharmacy, such programs are designed to identify,
evaluate, treat, and rehabilitate impaired pharmacists and to
successfully return them to practice. We therefore take substantial
pride in the draft report's mentioning that state boards' activities
include reinstatement of licenses. This fs at least as much a reflection
of successful pharmacist recovery programs as it is a reflection of any
"...overstate[ment] [of] the severity of boards' disciplinary activity."

Because of the proven success of Pharmacist Recovery Programs, boards of
pharmacy now have less need to revert to disciplinary actions to assure
the public is protected from pharmacists suffering from impairment.
Consequently, the volume of disciplinary actions taken by an individual
board of pharmacy should not necessarily be used as a measure of its
effectiveness in dealing with pharmacist impairment and resultant drug
diversion. In Virginia, for example, it has been reported that when the
state's Pharmacist Recovery Program was founded, "more than 40
pharmacists in the state had lost their licenses that year because of
drug or alcohol abuse. With the program underway, such disciplinary
action is a rarity."

The movement to establish Pharmacist Recovery Programs got its largest
boost in 1982, when the APhA House of Delegates adopted the following
policy:

    1. APhA believes that pharmacists should not practice while subject
       to physical or mental impairment due to the influence of
       drugs--including alcohol--or other causes that might adversely
       affect their abilities to function properly istheir professional
       capacities.

    2.   APhA supports establishment of detection processes as well as
         counseling, treatment, prevention, and rehabilitation programs
         for pharmacists and pharmacy students who are subject to physical
         or mental impairment due to the influence of drugs--including
         alcohol--orother causes, when such impairment has potential for
         adversely affecting their abilities to function properly in their
         professional capacities.
Richard P. Kusserow
March 6, 1990
Page - 4 -


APhA's strategy from the beginning has been to help establish impairment
assistance programs in the states and in the schools. Soon after the
1982 policy on pharmacy impairment was adopted, APhA began a relationship
with the University of UtahSchool on Alcoholism and Other Drug
Dependencies. The internationally recognized school, which this year
will be holding its 39th session, conducts a one-week, intensive summer
course on a broad range of areas related to chemical dependency. In
1983, APhA agreed to become the sponsor of the Pharmacists Section, one
of 18 sections of the school and to use that opportunity to help
implement the new policy. The session would be used to help foster the
development of impaired pharmacist assistance programs at the state level.

Although APhA's involvement goes back to 1982, state level activity had
begun even earlier, with the first state impaired pharmacist program
established in 1979. In the same year that APhA became involved, two
other state programs were established. A recent APhA survey shows that       f   1
today there are 46 state-level impaired pharmacist programs, largely as a
result of APhA's sponsorship of the University of Utah scho??.

All programs have a close working relationship with the state boards of
pharmacy, and APhA has worked closely with the National Association of
Boards of Pharmacy to nurture that relationship. The programs serve the
needs of the boards and the public well--they provide a mechanism whereby
pharmacists who are afflicted with the illness of chemical dependence are
identified (or self-identified), voluntarily removed from practice,
treated, and rehabilitated. Further, the programs assure that impaired
pharmacists entering into the programs do not return to practice until
successfully treated and rehabilitated.

RESPONSE TO RECOHMENDATIONS

The draft report's recommendations are addressed to state governments,
state boards of pharmacy, NABP, APhA and the U.S. Public Health Service.
Consistent with the comments made above, APhA supports:

    o the recommendations made to state governments ta provide resources,
      streamline procedures and enhance the capacity of state boards to
      effectively carry out their responsibilities.

    o the recommendation that state governments consider supporting
      impairment programs for pharmacists. A major deficiency in many
      Pharmacist Recovery Programs is a lack of adequate funding, so such
      state financial support would be welcome. One state, Texas,
      already accomplishes this by allocating a portion of each
      pharmacist licensure and relicensure fee to the state pharmacy
      association to help offset the cost of its Pharmacist Recovery
      Program. In another state, California, the state legislature has
      enacted legislation establishing and funding a program to assist
      impaired health professionals.
Richard P. Kusserow
March 6, 1990
Page - 5 -


    o the recommendations to state pharmacy boards to review the outcomes
      of their processes and procedures as they relate to the protection
      of the public, and to make infonnation on disciplinary actions
      available as appropriate.

    o the recommendation to NABP to assist atate boards of pharmacy in
      addressing the changing nature of pharmacy practice. APhA believes
      that NABF has made progress in this area in recent years, and will
      continue to work cooperatively with NABP, as it has done, to
      facilitate that process.

The recommendation calling on the U.S. Public Health Service to increase
its support to NABP requires further study and information. It is
unclear to APhA at this stage What benefits would accrue in a strictly
bilateral relationship between NABP and USPHS. However, inclusion of
USPHS in a broadly participatory process on the subject of state
discipline of pharmacists could prove to be valuable.

Finally, but =st critically for APhA, are those recommendations made
directly to us. The draft report calls on APhA to:

    o exercise its leadership in encouraging more peer review of
      pharmacists' professional performance by national and State
      professional pharmacy organizations.

    o work with the NABP and other professional pharmacy organizations to
      develop appropriate methods for assessing the continued competence
      of pharmacists.

The draft report describes a "...relative lack of peer review by
professional pharmacy organizations [that] is unfortunate." The report
further suggests that organizations be less concerned with threats of
antitrust litigation than in renewing efforts in this area. APhA's
historical commitment to professional practice is clearly evidenced by:

                                                       .
    o the development in 1852, and subsequent refinements of, the
      profession's only Code of Ethics;

    o the identification and articulation of the profession's Standards
      of Practice, in conjunction with the American Association of
      Colleges of Pharmacy (AACP);

    o the establishment within the APhA Bylaws of a Judicial Board
      (although currently not operational because of concerns about the
      antitrust posture of the Federal Trade Commission and the
      Department of Justice);

    o the establishment of, and continued sole financial support for, the
     Board of Pharmaceutical Specialities, the profession's recognized
     system for approving and certifying specialties and specialists
     within the pharmacy profession; and
Richard P. Kusserow
March 6 , 1990
Page - 6 -


    o the previously discussed efforts in establishing a nationwide
      program to address pharmacist impairment.

The level and extent of APhA"s efforts in these and other 'peer review"
activities must continue to be based on the legal, professional and
resource constraints of both the organization and the health care system
generally. APhA is currently engaged in a project with M C P and NABP to
revalidate and, as appropriate, further evolve the profession's Standards
of Practice. When originally conducted in 1978, this project was
envisioned as the first step in a multi-step process to determine
practice standards, define the necessary competencies to practice at the
level of the standards, and develop programs to assure pharmacists
obtained and maintained those competencies. Our commitment to this
activity continues, subject of course to overall staff and budgetary
resources.

Similarly, any commitment to an even more comprehensive "peer review"
system to assure the quality and competence of pharmacists will require
tremendous financial and staff resources to assure both complete and fair
investigatory and due process procedures for pharmacists being
evaluated. Perhaps most critically, the concept of a national standard
for pharmacist performance presupposes a national level of uniformity of
resources to deliver pharmacy care, and a national consensus on the part
of patients as to what they desire or demand from their pharmacists.
Clearly these conditions do not yet exist, and must be developed if any
program of peer review is to be successful. We would welcome the
opportunity to obtain federal or other grant support to further develop
these concepts. APhA will take under advisement and carefully consider
this recommendation of the draft report.

It has also been our personal organizational experience that the concerns
about antitrust litigation are in fact substantial and valid. Even when
adequate resources are available to assure a sound peer review process,
professional organizations are quite vulnerable to lawsuits by both
individual and government agencies, such as the Federal Trade Commission
and Department of Justice. APhA believes that OIG ispware of the FTC's
recent heightened interest in this area, particularly regarding health
care associations. We would therefore welcome the input of the OIG in
communicating its views on this subject to the other federal regulatory
agencies whose views on this subject appear to be substantially different
from those of the Inspector General.

Organizationally, APhA remains committed to assisting and encouraging
pharmacists in advancing the professionalism, comprehensiveness, and
quality of pharmacy care that they provide. We will continue to work in
    Richard P. Kusserow
    March 6 , 1990
    Page - 7 -


    conjunction with colleagues in pharmacy practice, education, research and
    regulation to achieve these goals. We appreciate the chance to respond
    to what we believe is an excellent draft report o n this subject and stand
    ready to work with the Department on behalf o f the profession and the
    patients we serve.




1   ~xedutiveVice President
                                                                       4630 Montgomery Avenue
                                                                       Bethesda. MD 20814




    March 16, 1990



    Richard P. ltusserow
    Office of t h e Inspector General
    Department of Health *and hms.n Services
    Washington D. C 2020 1

    Dear Mr. Ku8serow:

    Tbank you f o r asking t h e American Bociety of Boepital Phaxmaciuts (AS=) t o
    camment on t h e d r a f t r e p o r t of 'State Discipline of Phaxmacists.'

    The S t a t e boards of pharmacy are t o ensure t h a t pharnacy i s p r a c t i c e d mafely,
    competently, and i n accordance w i t h pharmacy and drug laws. The c i t a t i o n s and
    d i s c i p l i n a r y a c t i o n s by t h e boards of pharmacy are key t o insuring t h e s a f e t y
    of t h e p u b l i c . The d r a f t r e p o r t does n o t mention any p u b l i c h e a l t h hazards
    r e l a t e d t o pharmacist in-petence.                Wedication e r r o r s c c n ~ i t t e dby a l l h e a l t h
    care p r a c t i t i o n e r s contribute t o problcms in t h e h e a l t h care s y s t e ~ . The
    r e p o r t may be viewed a s incanplete without discussion of t h e p u b l i c health
    hazard t h a t an i n c a p e t e n t pharmacist poses t o society.

    There a r e sane o t h e r a r e a s of pharmacy p r a c t i c e i n which s t a t e boards' of
    regulatory a u t h o r i t y is not y e t f u l l y developed. m i l order p r e s c r i p t i o n s and
    non-pharmacist dispensing a r e two such areas. The r e p o r t should include sane
    a n a l y s i s of the r o l e of boards of pharmacy in regulating these a r e a s .

    We would a l s o l i k e t o add our thoughts about t h e profession a s we have seen it
    evolve. The pharmacy p r a c t i c e a r e a i s in a s t a t e of t r a n s i t i o n . A t one end
    of t h e spectrum, we have p r a c t i t i o n e r s who spend most of t h e i r professional
    t h e in t h e mechanics of p r e s c r i p t i o n dispensing. A t t h e o t h e r extrame a r e
.   pharmacists who spend most of t h e i r time i n d i r e c t p a t i e n t care ( c l i n i c a l ) .
    The l a r g e s t preponderance of p r a c t i t i o n e r s have a mix of both dispensing and
    c l i n i c a l a c t i v i t i e s . S t a t e boards a r e focused on r e g u l a t i n g t h e a c t i v i t i e s of
    t h e dispensing group because t h a t concept of p r a c t i c e is a l l .that i s &died
    in s t a t e pharmacy law and regulations. It vould be highly u n r e a l i r t i c and
    unwise t o expect s t a t e boards t o r e g u l a t e t h e e n t i r e 8pectrum of pharmacy
    p r a c t i c e . This p r a c t i c e may i n h i b i t t h e f u r t h e r developnent of t h e profession
    along c l i n i c a l l i n e s by tending t o lock i n t h e current s t a t e of p r a c t i c e , even
    i f t h e focus might be on what i s c u r r e n t l y progressive.

    Pharmacy p r a c t i c e has moved toward t h e prunotion of canpetericy with t h e
    s p e c i a l i t y p r a c t i c e a r e a s and c e r t i f y i n g s p e c i a l i s t s in a v a r i e t y of p r a c t i c e
    s e t t i n g s . This recognition f o s t e r s t h e self-assessment and self-developnent
    of p r a c t i t i o n e r s . The ASHP i s working t o meet t h e needs of these
    p r a c t i t i o n e r s by t h e developnent of t h e many self-study i n s t r u c t i o n a l
 materials, ACCRUE: Executive Uanagement Seminar S e r i e s , and i s caumitted t o
 the d e v e l o p e n t of a c l i n i c a l s t a f f developtent program. The ASHP's
 P r a c t i t i o n e r Recognition Program i s designed t o f o s t e r excellence in practice
 and provide recognition t o those p r a c t i t i o n e r s w i l l i n g t o make t h e voluntary
 carmnitment t o self-developnent. The educational focus of ASBP has k e n
 structured t o meet the needs of t h e p r a c t i t i o n e r s i n t h e v&ried p r a c t i c e
 s e t t i n g s and encourages than t o advance themselves.

 Perhaps it should be considered t o organize a conference to -lore                  t h e most
 appropriate way t o regulate pharmacy p r a c t i c e looking mpecifically a t t h e
 outcaues of p r a c t i c e rather than t h e methods of p r a c t i c e . Currently, t h e
 p o s s i b i l i t y of euch a conference fcr k i n g pursued by t h e Joint m i m e i o n of
 Pharmacy P r a c t i t i o n e r s ( J B P ) .

We hope t h a t t h e staff cauments and reccllnmendations w i l l be useful i n t h e
preparation of the f i n a l report. C a l l on ur, again ahould your office need
additional input.

                        &,&
  osp       . Oddis, Sc.D.
w c u t ? v e Vice President



cc:   h a r d of D i r e c t o r s
                National Association of Boards of pharmacyU
                  O 'Hare Corporate Center     7300Higgins Road    Suite 103
                            Park Ridge, /L 6006B      312/698-6227




                                        March    8 , 1990



Mr. Richard Russerow
Inspector General
Department Of Health & Human Services
Office of the Inspector General
Washington, DC 20201
Dear Inspector General Ku~serow:
   Thank you f o r providing the National Association of
Boards of Pharmacy (NABP) with this opportunity to ~0nUnent
on the draft report of the nState ~isciplineof
~harmacisls,~NABP is the national association that
represents the state boards of pharmacy in all 5 0 states,
the District of Columbia, Puerto Rico, the Virgin Islands,
some provinces of Canada, and the Phanaacy Board of
Victoria, Australia.
   We commend the s t a f f of the Boston Regional Inspector
General f o r Evaluation and Inspections office for their
careful and detailed analysis of the S t a t e pharmacy boards.
The report objectively identifies critical issues with a
clear understanding o f the intricate and delicate nature of
pharmacy regulation. The report recognizes the problems
imposed on the State pharmacy boards by understaffing and
inadequate resources and emphasizes the need fo* the State
pharmacy boards to be empowered with the broadest form of
penalties, including the right to reprimand and Fine, in
order to be fully effective.
   NABP appreciates the complimentary remarks made in
regard to our efforts to provide the State pharmacy boards
with assistance in m e t i n g their responsibility to protect
the public health and welfare. We look forward to working
with the Office of t h e Inspector General, the Public Health
Service, and other government agencies to accomplish the
recommendations outlined in the report.
SPECIFIC COMMENTS:

XNTRO WCTION :


Page 1 Federal Acknowledaement of the Role of State
       Boards of Phamacv.
       NABP concurs that 8tate pharmacy boards sew* as
       the afrontline of protection f o r the health and
       s a f e t y of the pub1ic.W It ie essential that both
       federal and state government. increase their
       support and cooperative a f f o r t s with State phazmacy
       boards in order to keep this *frontline of
       protectionm operable and affective.


FINDINGS :

Page 4   T h e enforcement r e s ~ o n s f ~ i l i t i e s ~ r n ~ ~
         Boards have become breas-lex           and
              ac
         diversion,
         The OZG report accurately recognizes that the
         practice o f pharmacy ha8 changed dramatically in
         recent years. As noted in the report, the
         challenge now facing State pharmaoy boards is how
         to effectively regulate this changing practice. A t
         the minimum, NABP agrees w i t h the OIG report t h a t
         S t a t e pharmacy boards must translate clinical
         pharmacy services into State regulatory
         requirements for governing the practice of
         pharmacy. However desirable such a translation may
         be, it can occur only i f State pharmacy boards are
         empowered by legislative changes to broaden the
         definition of the practice o f pharmacy to
         encompass more than the mere dispensing of a drug
         product,
Page 8            o       ' nc   se in t u n - i o u s
         W              n    ctio s between 1986 and 1988 is
         ~ttributableto three states.
         On pages A-2 and A-3 of Appendix I, the report
         notes that the analysis of disciplinary actions may
         not be wcompletely accurate or all-inclusive.n
         Recognizing the limits of the study and the
         incomplete data, it would be useful to a l a r i f y the
         above statement with the actual data. A t the
         minimum, it is necessary to identify the three
         s t a t e s responsible f o r skewing t h e overall
         increase in disciplinary actions.
Page 8    (CoUnuecU,
         I t is important t o recognize that, although the
         number of serious disciplinary actions imposed by a
         board is a good external evaluator, it f a one of
         many indicators. It has been our experience that
         State pharmacy board8 are much more aative in
         protecting the public health than i8 indicated by
         t h e disciplinary data information aontained i n t h e
         OIG report. As mentioned in the raport,
         educational programs as well as LnFormal and fonaal
         interventions by administrative rtaff also have a
         dramatic e f f e c t on the protrction of the public
         health. Unfortunately, outcome o~easuresexamining
         the overall e f f e c t o f the total spectrum of State
         pharmacy board actions have not been defined ar
         analyzed,
         State pharmacy boards are taking a more active t o l e
         in addressing the quality of care and c l i n i c a l
         aspects of pharmacy practice. While the progress
         to date has been slow and, at times, erratic, it
         can proceed a t a faster pace with the ausistance of
         the Office of the Inspector General and other
         government agencies,
 -
         The limited use of veer review bv-v           nrafessional
         m m a c v associations. ~ e i c u l p r l vin com~arison
         with m  t i n some other nrofespions, makes the
         disci~linarvoerfo-ce      of pbarmacv board^ all
         t h e more sianif
         we agree that tk:%ciplinary        performance of State
         pharmacy boards is significant, because no other
         process for review exists. However, we strongly
         advise against the development of any peer review
         system by professional oxganizations for use by
         the State pharmacy boards,
                                                   5




         A review process conducted by organizations like
         the American Pharmaceutical Association.(APhA),
         Internal t o its members and goals, fs needed and
         long overdue. The development of such a system
         could enhance the regulatory efforts o f the State
         pharmacy boards by increasing voluntary compliance
         with the law, The HABP Foundation's Bureau of
         Voluntary ~ompliance (BVC) is charged with exactly
         this purpose. Over the past ten years, the BVC has
         developed educational programs, video tape
         presentations, and seminars to promote voluntary
         compliance among the nation's pharmacists.
         Representatives from the Food and Drug
         Administration, Drug Enforcement Agency, and
Pages 10-11
       IContinusd)
       Consumer Product Safety commieeion
       participate in the BVC aeetingr and
       programs and hold ex-officio member
       status. HABP would certainly welaome the
       office of the Inspector General's
       participation in the meetings and
       deliberations of this important conimittee.
       Peer review systems designed w i t h t h i s purpose in
       mind would better serve the public health.
       Establishing peer review syatups, .imply becaune
       they presently do not e x i s t , may be detrimental.
       It would seem more pnrdent to follow the
       recommendations of the OIG report and concentrate
       our resources towards increasing the activity of
       State pharmacy boards in quality of care issues and
       in the clinical aspects of pharmacy practice. A
       peer review system organized through APhA could
       then be used to baseline the standards of care of
       the community of practicing pharmacists.
       Any violation o f the State pharmacy practice act,
       which would be expanded to meet the changes in
       practice and include clinical functions, should be
       reported to, and acted upon, by the State pharmacy
       board where constitutional authority and due
       process are already in place. Such authority
       should not be placed with peer review syotems that
       are organized through the auspices of a
       professional interest association.
      Many of the problems other health professions are
      currently facing in regard to their disciplinary
      activity are the result of relying solely upon
      peer review systems outside the legal authority of
      their State licensing boards. The National
      Disciplinary Data Bank was enacted to correct the
      failed efforts of some professions to discipline
      incompetent or dangerous practitioners, The peer
      review systems that other professions rely upon
      are often rendered ineffective by threatened legal
      action,
      The current structure of t h e State pharmacy boards
      and the authority empowered to them by their State
      phamacy practice acts is working well. Although
      many of these pharmacy practice acts may need to be
      updated in order to meet the challenges of the
      future, they should not be replaced or
      circumvented.
 Pages 11-12
            Prua Diversion
            Protecting the American public from the untoward
            and dangerous effects o f drug diversion is a
           crucial item on the regulatory agenda o f State
           pharmacy boards. If our natlonls drug delivery
           system is to remain aafe, we bust prevent and halt
           drug diversion. The OIG report achow18dgem M e
           t h e and effort that State pharmacy boards devote
           to combating this noourge and notes that thia
           concentrated e f f o r t i s diverting attention from
           other regulatory areas, such as continued
           competence. State pharmacy boards need additional
           federal funding and rupport in order to continue
           their present efforts in the fight against drug
           diversion and to expand their responsibilities to
           meet the future challenges of pharmacy practice,
           The Prescription Drug Marketing Act of 1987
           provides a framework for S t a t e pharmacy boards to
           curtail drug diversion activities through State
           licensure of wholesalers and drug distributors. We
           urge federal agencies to support the offorts of
           the State pharmacy boards to implement this A c t and
           to develop additional legislation to stop drug
           diversion.
           One particular comment in the report that merits
           attention, nThe law defines a corresponding
           responsibility f o r pharmacists to fill only
           legitimate prescriptions and makes them accountable
           for the prescriptions they d i ~ p e n s e . ~While this
           may be the OIG1s view of the law, the courts do not
           follow this concept from either a disciplinary
           standpoint or from a civil l i a b i l i t y standpoint.
           On several occasions, NABP has emphasized the fact
           that the courts narrowly construe the p h a m a c i s t t s
           professional role, limiting the duty of the
           pharmacist to appropriately filling lmgitimate
           prescriptions, State boardo o f pharmacy are moving
           towards defining that corresponding responsibility
           cited in the OIG report, i.e., defining quality of
           care and competence standards. Let US hope that
           the courts will cooperate w i t h this changing
           concept.
Page 1 3
           Qualitv of Care
           According to the OIG report, case study States
           reported, V h a t although their practice acts
           included incompetence as grounds for discipline,
           their boards had rarely, if evex, disciplined
Page 13
          (ContinuedL
          pharmacists for in~ompetence.~Furthenuore, the
          report contends that "no mechanisms have been
          widely instituted for asseasing the continued
          competence of practicing pharmacimt~.~
          State pharmacy boards have difficulty enforcing
          competency issues for a number o f reasons, The
          report indicates that a primary reason is the fact
          that no consensus exiots regarding definitions or
          standards. Efforts by the State pharmacy boards
          to move ahead in this area are vigorously opposed
          by special interest groups, State pharmacy boards
          are often defeated by the intensive lobbying
          efforts of these special interest groups.
          The State pharmacy boards would most likely accept
          this responsibility if the accompanying standards
          and definitions are also enacted. Unfortunately,
          in the face of such strong opposition from the
          special interest groups, passage of such
          requirements seems i~nposslbleunless the OIG report
          is taken to heart by state governments and
          legislatures.
          The NABP M       u mentioned in the OIG report
          does define the practice of pharmacy and addresses
          standards of practice which can be implemented by
          appropriate regulation.


Pages 14-15
          Insyff i c b t V    A   u   t   h
          We agree w i t h the OIG report t h a t the grounds for
          discipline contained in the pharmacy practice acts
          are sometimes vaguely defined. Grounds for
          discipline are broadly defined in order to provide
          the board with the widest latitude in which to
          implement the grounds through appropriate rules and
          regulations, NAEP recommends the continuation of
          such generalities in order to provide the
          appropriate latitude for enforcement,
        We are concerned with the repor,twsfinding that
        emergency suspensions ncan take as long as two
        years to obtain," Normally, statutes that permit
   '    -
Pages 14-15
        the suspension of a l i c e n s e on an emergency basis
        can be quickly implemented. It is the finalization
        of such an emergency rumpansion that can take a
        long period o f tine. However, once under emergency
        suspension, a liaense our only be restored through
        the courts.
        NABP believes that the State phsro~acyboards are
        empowered with more authority than mom0 roaliee.
        The problem lies with the inability of some State
        pharmacy boards to exerci8e this authority
        effectively because they are undarmtaffed, lack the
        resources, or are reluctant to be proactive.

Pages 15-16
                  ive Barriers
       The GIG report's discussion of administrative
       barriers supports NABP's concept o f an effective
       disciplinary clearinghouse. In fact, NABP *st
       aggressively pursue State pharmacy boards to gain
       their cooperation to voluntarily subnit
       disciplinary action information to the Association
       for distribution among the other State pharmacy
       board members.
       Since the completion of the OIG report, the NABP
       Disciplinary Clearinghouse has been fully
       computerized. Almost all State pharmacy boards
       now participate in the NABP Clearinghouse,
       Additionally, the FDA and NABP have agreed to
       ahare disciplinary information concerning
       wholesalers and manufacturers in order to increase
       the reporting of such information to the State
       pharmacy boards and to allow for the more effective
       resolution of enforcement problems through federal
       and state cooperation.
                                                .
       The report also recognizes the problems that e x i s t
       in ".,,the time consuming nature of the
                                          Hany times, hovever,
       disciplinary process i t ~ e l f . ~
       State pharmacy boards cannot control this process.
       It is a function o f how often a State pharmacy
       board meets, which is often directly related to the
       resources available to the board. Additionally,
       the system is slowed by delays permitted by boards
       and hearing officers and other legal maneuvering
       of attorneys,
Pages 15-16
        ICont i n m
        The delay imposed on the disciplinary systarn by the
        insufficient resource8 noted in the OIG r a p e is a
        serious matter. Some states have dmalt with this
        problem by centralizing licursing boards under one
        umbrella agency. The information we have
        collected r r m s to indiaate that aontralizstion
        often diluteo alroady mcarce rerourcas and
        decreases regulatory offoctiv.nemm.




NABP supports the recomondationo of tha report that call
for increaeed support and funding for State pharmacy
boards. We w i l l continue our efforts to 8erve a
leadership role for tha State pharmacy boards as they begin
to address the changing natura of pharaaoy practice. We
caution against the creation of paer rovirw groups unless
their purpose is well defined and activities tightly
controlled.
In closing, we want to   again indicate that NABP is most
eager to work with the   O f f i c e of the Inspector Gonaral, the
Public Wealth Sarvice,   and other government agencies to
ensure that the public   health and welfare is protected.

                                    Sincerely,
                                    NATIONAL ASSOCIATION
                                    OF BOARDS OF PHARMACY


                                                                     w
                                    C. A. Catieone
                                    Executive Director


cc   NABP Executive Committee
     State Boards of Pharmacy
                                          National Clearinghouse
:                                4        on Licensure, Enforcement and Regulation
1   IIron Works Pike, P.O.Box 11910, Lexington, Kentucky 40578-9989, (606) 231-1892
     Eugene L. Ketchum, Executive Director


    PRESIDENT
    Bruce Douglas
    Division Director                   March 30, 1990
    C O Dept. of Regulatory Agencies
    PRESIDENT-ELECT
    Elizabeth Stewart                   Martha B. Kvaal
    Assistant Chief Counsel             Deputy Regional Inspector General
    A 2 Office of Attorney General       for Evaluation and Inspections
    IMMEDIATE                           U.S.Dept. of Health and Human Services
    PAST PRESIDENT                      JFK Federal Building Room 1407
    Ksrr Schmitt                        Boston, Massachusetts 02203
    Director of Testing
    MI Depr. of Licensing &
     Regulation
    STEERING COMMITTEE                  Dear Ms. Kvaal:
    Irv Dcshayes
    Chairman                                         It has been our p l e a m e to review the January, 1990 draft copy of State
    NF. Board of Examiners in           Discipline of Pharmacists. This is a very thorough document that captures and presents in
      Audiolog). 6. Speech Patholog!.
                                        an informative manner current disciplinary practices among pharmacy boards. There is littlc
    Claudia FOUIZ                       doubt that there will bc gcneral agrccmcnt with the finding that an obvious nccd exists in
    Chief Dcpty Director
    2 A Dept. of Consumer Affairs       many stares for more statutory authority bcfore appropriate disciplinary actions can be takcn
    James .I Gufley
                                        against pharmacists.
    Deputy Director for Enforcement
    VA Dept. of Commerce                             With respcct to Lhc information we arc given that 97% of Lhc rcccnt incrcasc in
    William Marcus                      "most scrious disciplinary actions" has occurrcd in just three states and hat furlhcr, 15 states
    Deputy Attorney General             took 10 or fewer of these "most scrious actions" for the period 1986-88, it would have bccn
    CA Dept, of Justice
                                        hclpful to understand what accounted for thc incrcasc or lack of increasc in such actions.
    William G. Miller                   Whilc thc corrclation madc with location and size is interesting, it does not ncccssarily
    Joint Secretary
    G A State Examlninp Boards          explain what is going on in thesc statcs.
    Donald C. Murra?. Jr.
    Director                                         We fcel i t is particularly important that thc report points out the nccd for Lhc
    DC Depl. of Consumer 6:             ficld of pharmacy to address ihc issucs of standards for quality of care and the nccd to sharc
     Rcgulacory Affairs
                                        information on disciplinary actions lakcn. With regard to the lauer, we apprcciatc that you
    Paul Quinlnn
    Director
                                        mention CLEAR as a repository for statc board disciplinary actions and agrce that reporting
    NE Real Estate Commission           to boh CLEAR'S National Disciplinary Information System (NDIS)and the National
    Mar! Romclfanger
                                        Association of Boards of Pharmacy (NABP) Disciplinary Clearinghouse is an extrcmcly
    Deputy Execu:i\,c D~recco:          important stcp toward resolving this problem. Wc also agrec that i1 is not in a health
    K Y Board of Nursing                profession's best intcrcst to wail for operation of the NationaLPractitioncr Data Bank (NPDBj
    Barbara Showers                     to bcgin the practice of reporting information to a central repository. Through delay,
    Director of Examina!ions            valuable disciplinary information is lost that could stop practitioners from crossing stutc lincs
    WJ Dept. of Regulac~on&
     Licensing
                                        lo rcsume practicc wiLl10ut challcngc sinlply bccause appropriatc inforniation was not sharcd.
    Caroline Stellmnnn
                                        Also, as a practical administrative maucr, it will be far simpler for boards that arc in lllc
    Member                              practice of sharing disciplinary information lo comply with the requircmcn~sof thc NPDB.
    MD Board o l Examiners of
     Nurses                                             Thank you for thc opportunity lo comnlcnl on this report.
    Ron Weavcr
    Administrator
    Professional Licensing Scrviccs
    \'A Dept. of Health                                                                                Sincerely,
    John 6 . Welsh. J r .
    Senior Counsel
    WA House of Representatives
                                                                                                       Pam Brincgar
                                                                                                       Projcct Director. NDIS




                                         .........
                                         ... . ...
                                                     Affiliate Organization of The Councll of State Governments
                                             -   -



                     APPENDIX B

   INCIDENCE AND RATE OF SERIOUS DISCIPLINARY ACTIONS
IMPOSED BY STATE BOARDS ON PHARMACISTS AND PHARMACIES
                   B Y STATE 1986-1988'
(1)   As reported by State pharmacy board officials to the Office of Inspector General, HHS, May-June 1989.
      Actions included in these figures are revocations, suspensions, probations, and voluntary sunenders for
      both pharmacists and pharmacies. New York and Nevada provided no data; Oklahoma provided figures
      only for revocations; and Kentucky provided data for 1986 and 1987 only.

(2)   Number of active pharmacists plus number of licensed pharmacies as reported to the National
      Association of Boards of Pharmacy by States in 1987. For those States not reporting to the NABP, the
      OIG obtained data by telephone from the state pharmacy boards.
                                        APPENDIX C

                                METHODOLOGICAL NOTES

The information for this inspection is based on four lines of inquiry:

           Review of pertinent literature and relevant data bases, including studies, books,
           articles from professional newsletters and journals, publications and papers fiom
           various private and public organizations, and statistical data aggregated by private
           and public organizations.

           Telephone discussions with representatives of the State pharmacy boards during
           the spring of 1988 and the spring of 1989. In 1988 we talked with representatives
           from 42 States and the District of Columbia about the major challenges facing their
           boards, the major reasons for disciplinary actions, primary sources of information
           about potential cases, and recent significant changes in authorities. In 1989 we
           talked with representatives from all 50 States and the District of Columbia to
           obtain quantitative data on disciplinary actions and discussed drug diversion,
           foreign-trained pharmacists, exemplary board practices and barriers to
           effectiveness. In most cases we talked with the chief executives of the boards, but
           in a few instances we spoke with other staff suggested to us by the executives.

           Visits of 2 to 3 days each to six States (CA, FL,MA, MI, NY, TX) for discussions
           with pharmacy board representatives which typically included the board president,
           the public member of the board, the chief executive, an inspector, and an attorney.
           We deliberately chose States which were among the largest in terms of numbers of
           pharmacists and pharmacies, of Medicare beneficiaries and Medicaid recipients,
           and of Medicaid payments for prescription drugs in 1987. These States represented
           all sections of the country as well as diversity in their organizational structure.
           Finally, we had shorter personal discussions with staff from nine smaller States
           during the annual meeting of the NABP in Charleston, South Carolina in May 1989.

           Discussions with representatives of organizations and agencies concerned with
           issues related to State pharmacy boards. These included staff from the FDA, PHS,
           and HCFA within the Department of Health and Human Services, the Drug
           Enforcement Administration, American Association of Colleges of Pharmacy, The
           American Council on Pharmaceutical Education, American Pharmaceutical
           Association, National Association of Boards of Pharmacy, National Association of
           State Controlled Substances Authorities, National Clearinghouse on Licensure,
           Enforcement and Regulation, the United States Pharmacopeial Convention, Inc.,
           and staff from several State pharmacy associations.
 Numbers of Pharmacists and Pharmacies

 There is considerable uncertainty about the number of pharmacists in the United States today.
 The Public Health Service in its Sixth Report to the President & Congress on the Status of
 Health Personnel in the United States includes pharmacy manpower estimates projected from
 figures obtained in the 1970s. These projections are considered unreliable by many in the
 pharmacy profession. Yet the currently available State-specific data on licensed pharmacists
 double count those pharmacists licensed in more than one State and do not distinguish those in
 active practice from those who are not currently practicing.

After discussions with representatives fiom the PHs and the NABP, we decided to use data on
the active pharmacists and licensed pharmacies provided by the States to the NABP in 1987.
These estimates are published by NABP in its 1988-1989 Survey of Pharmacy Law. We
telephoned the board executives from those few States not included in the NABP report to
obtain estimates from them on the number of active pharmacists or pharmacies in their States.

The figure we used for the total number of active pharmacists nationwide is 183,946. The
figure we used for the number of licensed pharmacies is 67,947. Our quantitative analysis of
disciplinary actions and our size groupings of the States are based on these estirnatz.

Analysis of Disciplinary Actions

During May and June 1989 we talked with pharmacy board officials in every State and the
District of Columbia for data on the disciplinary actions taken by the boards against both
pharmacists and pharmacies in 1986, 1987, and 1988. We asked for the number of
revocations, suspensions, probations, voluntary surrenders, or other formal actions they
specified.

Forty-seven boards were able to provide us with data for all 3 years, although they could not
always provide a separate count for actions against pharmacists and against pharmacies. Two
States-Nevada and New York--could not provide the data for any of the 3 years. Oklahoma
provided figures only for revocations, and Kentucky could not provide data on 1988 actions.

We cannot c o n f m that the data on disciplinary actions is completely accurate or all-inclusive.
We did try to resolve any questions or inconsistencies with follow-up telephone calls to the
board officials who, typically, were very responsive.

We found that some States kept records on disciplinary actions by fiscal year rather than
calendar year. For these States, we included in our analysis their 3 most recent and complete
years of data. We also analyzed the data for a 3-year period in order to eliminate year-to-year
fluctuations and to draw more reliable conclusions. In so doing, we combined disciplinary
actions reported for both pharmacists and pharmacies because many States could not separate
the two and because oftentimes boards take action against both the pharmacist and the
pharmacy in a given case. Finally, we computed a rate of discipline for the 3-year period for
each State. We divided the numbers of actions taken against both pharmacists and pharmacies
by the combined number of active pharmacists and licensed pharmacies in each State.

Groupings of States by Region and Size

We analyzed the data on disciplinary actions provided to us by the board executives according
to groupings we identified based on size and region of the country. In both these groupings,
we omitted Nevada and New York because their data was not available.

With respect to region, we used the U.S. Bureau of the Census categorizations to identify four
regions of the country. They are as follows:


      1      Northeast:        CT,MA, ME, NH, NJ, PA, RI, and VT.

      2      South:            AL, AR, DC, DE, FL,GA, KY, LA, MD, MS, NC, OK, SC,
                               TN,TX, VA, and WV.

      3     Midwest:           IA, IL, IN, KS, MI, MN, MO, NE,ND, OH, SD, and WI.


      4     West:              AK, AZ, CA, CO, HI, ID, MT, NM, OR, UT, WA, and WY.

With respect to size, we used variance analysis to identify five clusters of States based on the
number of active pharmacists and licensed pharmacies. They are as follows:


      1     Extra-Small:       AK, DC, DE, HI, ID, ME, MT, ND, NH, RI, SD, VT, and WY.


      2     Small:             AR, CO, IA, KS, MS, NE,NM, OR, UT, and WV.


      3     Medium:            AL, AZ, CT,KY, LA, MD, MN, MO, NC, OK, SC, TN, VA,
                               WA, and WI.


      4     Large:             GA, IL, IN, MA, MI, NJ, and OH.


      5     Extra-Large:       CA, FL, PA, and TX.
                                      APPENDIX D

                                       ENDNOTES

1.   For a more extensive discussion of State licensing boards, see:

     Doug Roederer and Benjamin Shimberg, Occupational Licensing: Centralizing State
     Licensure Functions, Council of State Governments, Lexington, Kentucky, 1980.

     Benjamin Shimberg, Occupational Licensing: A Public Perspective, Educational
     Testing Service, 1980.

2.   The American Association of Colleges of Pharmacy and the National Association of
     Boards of Pharmacy are co-managers of the Pharmacy Manpower Project. This project,
     supported by 13 major pharmacy organizations, is a recent effort to gather more
     comprehensive data on pharmacists than is currently available. (See appendix C for
     additional detail about the sources of our manpower estimates.)

3.   These responsibilities are being further expanded by the Prescription Drug Marketing
     Act of 1987 which requires the States to license wholesale prescription drug distributors
     according to Federal guidelines.

4.   Scheduling Aurhorities Directory 1988, National Association of State Controlled
     Substances Authorities, The Council of State Governments, Lexington, Kentucky.

5.   U.S.Department of Human Services, Public Health Service, Food and Drug
     Administration, State Law Data, 1989.

6.   Survey of Pharmacy L a w 1988-1989, National Association of Boards of Pharmacy,
     Park Ridge, Illinois.

     Resources and Responsibilities Survey of all pharmacy board executives by NABP in
     early 1989.

7.   Charles D. Hepler, "The Third Wave in Pharmaceutical Education: The Clinical
     Movement," American Journal of Pharmaceutical Education, Volume 5 1 , Number 4,
     Winter 1987.

     U.S. Department of Health and Human Services, Office of Inspector General, Office of
     Analysis and Inspections, Clinical Pharmacy for Ambulatory Patients, Inspection
     Number OAI-01-89-89160, draft report, January 1990.

8.   Sarnuel H. Kalman and John F. Schlegel, "Standards of Practice for the Profession of
     Pharmacy," American Pharmacy, Volume NS19, Number 3, March 1979.
For elaboration on changes in pharmacy, see:

"The Continuing Competence of Pharmacists, Final Report of the AACPIAPhA Task
Force on Continuing Competence in Pharmacy," Journal of the American
Pharmaceutical Association, Volume NS 15, Number 8, August 1975.

"Pharmacy in the 21st Century", Executive Summaries of Strategic Planning
Conferences, March 25-28, 1984 and October 11-14, 1989, American Association of
Colleges of Pharmacy.

Nicholas G. Popovich, Ph.D., "Emerging Practice Activities: Specialist and Technician
Roles in Pharmacy", NABP Newsletter, Volume 18, Number 3, March 1989.

U.S. Department of Health and Human Services, Public Health Service, Sixth Report to
the President & Congress on the Status of Health Personnel in the United States, June
1988, pp. 8-1 to 8-17.

"State boards up close: How pharmacists rate them", Drug Topics, May 19, 1986, p. 32.

Telephone discussions with State pharmacy board executives, Office of Analysis and
Inspections, OIG, spring 1988.

U.S. General Accounting Office, Retail Diversion of Legal Drugs-A   Major Problem
With No Easy Solution, GGD-78-22, March 1978.

U.S. General Accounting Office, Comprehensive Approach Needed to Help Control
Prescriptiorz Drug Abuse, GGD-83-2, October 1982.

U.S. Department of Justice, Drug Enforcement Administration, Multiple Copy
Prescription Programs Resource Guide, July 1987.

For a more detailed discussion of non-therapeutic dispensing, see Carol E. Fisher,
Harvey Dunham, Fred S. Brinkley, Jr., "Controlling Non-Therapeutic Dispensing in the
State of Texas," Texas State Board of Pharmacy,April 1989.

Survey of Pharmacy Law1988-1989, op. cit.

U.S. Department of Health and Human Services, Office of Inspector General, Clinical
Pharmacy for Ambulatory Patients, op. cit.

Telephone discussions with State pharmacy board executives, Office of Analysis and
Inspections, OIG, Spring 1988.

Data on types of penalties and grounds for discipline derive from the 1989 NABP
survey of State pharmacy board executives.
17.   U.S. Department of Justice, Drug Enforcement Administration, Multiple Copy
      Prescription Program Resource Guide, op. cit Information also based on personal
      interview with staff from the OEce of Diversion Control, Drug Enforcement
      Administration, U.S .Department of Justice.

18.   U.S. Department of Justice, Drug Enforcement Administration, "Committee Report on
      CSA Laws Presented at the 2nd National Conference on the Control and Diversion of
      Controlled Substances," Tuscson, Arizona, 1986.

19.   These data include actions for both pharmacists and pharmacies. Although pharmacy
      boards frequently discipline both as part of the same case, pharmacists are disciplined
      much more frequently than pharmacies overall. We include actions against both
      because many boards were unable to provide us with separate data for each.

20.   Widespread variation existed in the types of these other formal penalties and in the
      extent to which the same penalty was considered formal or informal by different boards.
      Further, the boards reported often imposing these other penalties in combination with
      the most serious penalties and were often unable to give us unduplicated counts.

21.   We aggregated the data reported on revocations, suspensions, probations, and voluntary
      surrenders for both pharmacists and pharmacies for the entire 3-year period. We
      computedrates of disciplinary actions per 1000 active pharmacists and pharmacies in
      each State as reported to the NABP (see appendices B and C).

22.   Survey of Pharmacy Law--1988-1989, op. cit., p.50.

      We provided each of our case study States with a listing of those pharmacists and
      pharmacies sanctioned by OIG since 1984 whose exclusion was still in effect as of
      October 31,1988. There were 114 providers among the six States. Our analysis of the
      States' responses showed that the States had also disciplined three-fourths of these
      providers and that, in nearly two-thirds of these cases, State action preceded the OIG
      exclusion notice. The States reported having taken no action against 18 percent of these
      providers. Approximately 7 percent of these providers had State action pending against
      them at the time of our inquiry.

24.   Telephone discussions with State pharmacy board executives, Office of Analysis and
      Inspections, OIG, spring 1989. The ARCOS (Automation of Reports and Consolidated
      Orders System) is a computerized tracking system instituted by the DEA to monitor the
      distribution of selected controlled substances by drug manufacturers and distributors
      based on quarterly or monthly reports filed by these companies with the DEA.

25.   U.S. Department of Justice, Drug Enforcement Administration, "Pharmacist's Manual,"
      April 1986.
26.    Helping the Impaired Pharmacist, A Handbook for Planning and Implementing State
       Programs, American Pharmaceutical Association, Washington, D.C., 1985, p. 1.

       For further background information on therapeutic approaches to pharmacists'
       impairment, see also Ronald L. Williams, "Helping our Impaired ColleagueMe're on
       a Roll!" American Pharmaceutical Association, Washington, D.C.,September 1988.

27.    In our discussions, we defined incompetence as a deficiency in minimal skills or
       knowledge which adversely affect professional judgment.

28.    The AACP, APhA and NABP are presently reviewing the 1979 Standards of Practice.
       The boards must deal with how best to translate these professional standards into
       regulatory requirements.

29.    Daniel A. Nona, W. Robert Kenny and David K. Johnson, "The Effectiveness of
       Continuing Education as Reflected in the Literature of the Health Professions,"
       American Journal of Pharmaceutical Education, Volume 52, Summer 1988..

30.    Data on types of penalties and grounds for discipline derive from the 1989 NABP
       survey of State pharmacy board executives.

3 1.   We attempted to examine the funding levels of pharmacy boards over the last several
       years but were unable to locate any comprehensive data. The NABP surveys all the
       boards biannually for updated information on their resources and responsibilities.
       Although 50 boards responded to the 1989 survey, only 39 provided information on the
       level of their current budgets. The information available from the last biannual survey
       was aggregated in a form not useful for comparisons with this year's data.

32.    This analysis of fees is based on data included in Survey of Pharmacy Law, op. cit., for
       the years 1988-1989 and 1987-1988.

33.    Resources and Responsibilities Survey of all pharmacy board executives by NABP in
       early 1989. Responses varied from two States having 16 inspectors to one State
       reporting no inspector because the board executive conducts the inspections. The
       average number of inspectors among the States responding was 4.7; nearly half the
       States had no more than three inspectors. In only slightly more than half the States
       were the inspectors employed directly by the board rather than by another State agency.

34.    Survey of Pharmacy Law 1988-1989,op.cit., p. 5.

35. White House Conference for a Drug Free America, Final Report, June 1988.

36.    "The Continuing Competence of Pharmacists, Final Report of the AACPJAPhA Task
       Force on Continuing Competence," op. cit.
37.   Samuel H. Kalrnan and John F. Schlegel, "Standards of Practice for the Profession of
      Pharmacy," op. cit.

38.   Benjamin Shimberg, "What is Competence? How Can It Be Assessed?'Power and
      Conflict in Continuing Professional Education, edited by Milton R. Stein, Wadsworth,
      Inc., 1983.
